<html>
<title> - THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: SYRIA, IRAQ, AND THE FIGHT AGAINST ISIS</title>
<body><pre>[Senate Hearing 114-809]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-809
 
  THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: SYRIA, IRAQ, AND THE 
                           FIGHT AGAINST ISIS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
       
       
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-922 PDF                WASHINGTON : 2019            
       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
Dr. Kimberly Kagan, President, Institute for the Study of War, 
  Washington, DC.................................................     4
    Prepared Statement...........................................     6
Brian Katulis, Senior Fellow, Center for American Progress, 
  Washington, DC.................................................     8
    Prepared Statement...........................................    10
Michael Bowers, Vice President of Humanitarian Leadership and 
  Response, Mercy Corps, Washington, DC..........................    16
    Prepared Statement...........................................    18

                                 (iii)

  


                   THE U.S. ROLE AND STRATEGY IN THE 
          MIDDLE EAST: SYRIA, IRAQ, AND THE FIGHT AGAINST ISIS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Johnson, Flake, Gardner, 
Perdue, Cardin, Menendez, Shaheen, Coons, Murphy, Kaine, and 
Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations Committee will come to 
order.
    We thank our witnesses for being here, and we look forward 
to your testimony.
    Today's hearing is the start of what will be a new series 
of hearings examining the role of the United States in the 
Middle East. This hearing will focus on the conflict in Syria 
and Iraq and the humanitarian crisis resulting from the 
sustained and unrelenting violence in the region.
    Two of our witnesses today will address the war in Syria 
and Iraq. And Mr. Bowers will speak directly to the 
humanitarian effects of the war.
    Becoming more and more apparent that the administration's 
stated goal--goals in Syria of defeating ISIS and removing 
Assad are not aligned in any kind of clear, coherent strategy 
that we can realistically expect to achieve those stated goals.
    In Iraq, ISIS largely has maintained its ground since they 
took Ramadi, in May. And more than 4 years into the war in 
Syria, as the administration continues to fumble for a 
strategy--and I think that is apparent by all--the devastating 
effects of the war are starting to confront us in a form of a 
refugee crisis that Americans and people around the world are 
able to see daily on television and read about in their 
publications.
    I join many of my colleagues in the desire for the United 
States to play our appropriate role with respect to the refugee 
crisis, but we would be remiss to focus solely on a 
humanitarian response without addressing the root cause of this 
crisis: the Assad regime and its Iranian and Russian backers.
    We have had multiple witnesses today testify before the 
committee that, after the conclusion of the Iran deal, the 
United States would need to prove that we are serious about 
pushing back against Iran's regional actions. I know the 
ranking member and others on the committee are steadfast in 
wanting to make sure that we end up with a Middle East policy 
that is not just the Iran nuclear deal, if you will, being the 
default position. And I appreciate our ranking member for his 
concern in that way.
    Many have said the place for us to do that, in particular, 
is in Syria. As Russia flies weapons and troops over Iraq and 
into Syria establishing a greater presence, American leadership 
continues to be tested. The failing strategy in Iraq has led to 
Iranian-backed militias overshadowing U.S. military support.
    In Syria, thousands continue to die at the hands of Assad 
and his backers, and millions of civilians have fled the 
country. Without defined, committed engagement to counter 
destabilizing actions in the region, the need for American 
involvement will continue to grow as conditions deteriorate.
    Against the backdrop of unprecedented turmoil in the Middle 
East, we have just concluded a nuclear agreement with Iran that 
again alters the balance of power in the region. We have all 
heard from our allies in the region about the fear of American 
disengagement, and we cannot ignore that the lack of a coherent 
American leadership has left a vacuum that will continue to be 
filled by violence. And again, I think almost everyone in the 
committee is committed to pushing--pushing this administration 
toward having a coherent strategy that does not allow that to 
continue.
    I hope our witnesses can help us understand what policies 
the United States should be seeking in Syria and Iraq and what 
is needed to achieve these goals. I want to thank you all again 
for appearing before our committee. I look forward to hearing 
your testimony.
    And, without any objection, your written testimony will 
become a part of the record.
    And, with that, I look forward to our distinguished ranking 
member's comments, a great partner, someone I cherish working 
with and I look forward to working with on this issue.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Senator Corker, first, thank you for 
your convening this hearing. I know we will have others dealing 
with the security in the Middle East. And I join you in 
encouraging these hearings, because I think we need to 
understand that we have been concentrating for the last, I 
guess, 2 months on Iran and the Iran nuclear agreement, which 
is what we should have done, but we also understand that the 
other preeminent threat tearing at the fiber of the Middle East 
is ISIS/ISIL, and we need to concentrate on what it is doing in 
the Middle East. I know Iran will be part of that discussion, 
as it should be.
    As we turn to Syria, Iraq, and the fight against ISIL, it 
is important that we acknowledge Iran's malicious role in 
undermining stability. Iran, along with its proxies, is 
hampering political processes, reconciliation, and inclusive 
governments in both countries. Iran may share in our short-term 
tactical goal of defeating ISIL, but I see no room for broader 
cooperation until and unless Iran commits to a Syria without 
Assad, and Iraq that is governed in a representative manner.
    Over the past several weeks, we have been haunted and 
shocked by the images of Syrian refugees seeking a better life 
in Europe. We read that Iraqi citizens, seeing their Syrian 
neighbors successfully receive a welcome reception in some 
European countries, have undertaken this treacherous and 
uncertain journey themselves in search of safety and 
opportunity. But the crises in Syria and Iraq have also 
generated enormous burdens on neighboring countries, like 
Turkey, Jordan, and Lebanon. Syrian and Iraqi citizens are 
losing hope that conditions in their own countries will improve 
anytime soon. This is a dire situation with frightening 
consequences for future generations in the Middle East, as well 
as for stability and success in the region.
    Mr. Chairman, as you know, the number of refugees and 
displaced people globally is around 60 million today, coming 
very close to the number we saw at the end of World War II. And 
it is increasing at an alarming rate. It is not getting better, 
it is getting worse. In 1 week in April, 1,000 people perished 
by two separate shipwrecks. It is dangerous, and people are 
losing their lives.
    In Syria, over 50 percent of the people have left their 
homes. Lebanon, country of 4.2 million, has taken in 1.2 
million Syrian refugees, equivalent to 30 percent of their 
population. That would be like the United States taking in 100 
million refugees. As the refugee and humanitarian crisis 
continues to grow, the region is becoming more and more 
destabilized.
    So, yes, Mr. Chairman, I agree with you completely, we have 
to deal with the root causes, but we also have to deal with the 
humanitarian crisis and help save lives. And the United States, 
I think, is uniquely qualified to provide that type of 
international leadership, and this committee should help our 
country in dealing with this challenge.
    Today's hearing is a welcome opportunity to step back and 
assess the big picture. Are we making progress in degrading 
ISIL? And how are we measuring that progress? We hear promising 
reports from our coalition and military leaders about territory 
seized from ISIL and the number of airstrikes, but our 
effectiveness in combating the ISIL threat cannot be measured 
solely by the number of sorties flown, bombs dropped, or 
foreign fighters stopped, or the size of territory reclaimed. 
What would it ultimately take for us to defeat ISIL?
    The Obama administration's anti-ISIL strategy includes 
military airstrikes and building up local ground forces, 
complemented with countering the other sources of ISIL's 
strength: cutting off its financing, interdicting foreign 
fighter flows, and undermining its propaganda machine. It is a 
sound strategy, but how is it working?
    I commend the Obama administration for its dedication to 
building a truly global coalition committed to the anti-ISIL 
fight. I believe the United States has a critical and necessary 
leadership role to play in helping to combat ISIL and restoring 
stability to the region. But, large-scale U.S. forces, at this 
time, in this complex political and military atmosphere, would, 
at the end of the day, decisively increase the prospect of 
losing the war against ISIL by increasing instability, making 
U.S. forces a magnet for violent extremists, and destroying the 
prospect for sustainable local solutions.
    So, I look forward to engaging our witnesses today on U.S. 
policy in Iraq and Syria outside of the fight against ISIL, and 
how we are using our diplomatic strength, assistance, and 
military support to increase the prospects of a lasting and 
local political solution. In Iraq, this will require leaders 
willing to take bold steps beyond party, ethnic, and religious 
interests. It will mean implementing Prime Minister Abadi's 
bold reform agenda. It means building up Iraqi forces willing 
to fight for all Iraqis, and encouraging political 
reconciliation, power-sharing, and economic resiliency.
    In Syria, we must reinvigorate a plan for Assad's exit. 
Assad's barrel bombs continue to drop, and it has been clear to 
many of us for some time that Syria will never be stable and at 
peace if our strategy focuses on ISIL alone. How can we 
galvanize a political process that can enable all Syrians, 
regardless of their ethnicity, sect, or faith, to live in peace 
and security?
    That is our challenge, and I look forward to hearing from 
our witnesses as we hear more about how the United States can 
provide the leadership necessary for stability in that region.
    The Chairman. Thank you, Senator Cardin.
    I would now like to recognize our witnesses. Our first 
witness is Dr. Kimberly Kagan, founder and president of the 
Institute for the Study of War. We all know her well and 
appreciate her testimony today. Our second witness is Dr. Brian 
Katulis, senior fellow at the Center for American Progress. 
Thank you so much for being here. And finally, the third 
witness we will hear from today is Mr. Michael Bowers, vice 
president of Humanitarian Leadership and Response at Mercy 
Corps. We thank you for the work your organization does around 
the world, and your testimony today.
    Instead of me introducing each of you, after the witness, 
if you all will just keep going, starting with Kimberly. You 
know the drill. If you could summarize in about 5 minutes, we 
have all of your testimony in writing; we appreciate that, and 
then we will ask questions.
    Thank you very much. If you would begin, Dr. Kagan.

 STATEMENT OF DR. KIMBERLY KAGAN, PRESIDENT, INSTITUTE FOR THE 
                  STUDY OF WAR, WASHINGTON, DC

    Dr. Kagan. Thank you very much, Mr. Chairman, Mr. Ranking 
Member. I really appreciate your invitation to testify today on 
an issue that is vitally important for the United States, its 
security and its values.
    The United States faces national security challenges in 
2015 of a scope and scale that we, as a nation, have not 
encountered since the end of the cold war. The Islamic State in 
Iraq and al-Sham, which we call ISIS, has seized control of 
terrain in Iraq and Syria, declared itself a caliphate, and 
aims not only to reify that claim, but also to provoke an 
apocalyptic war with the West. ISIS is challenging al-Qaeda, 
the terrorist organization from which it sprung, as the leader 
of the global jihadist movement.
    Russia, a nuclear power, is waging a crypto war in Ukraine, 
and is using its capabilities to intimidate NATO. The United 
States and Iran have signed a nuclear deal that will have 
ramifications on sanctions in ways that will likely increase 
Iran's malign behavior inside of the Middle East, which already 
includes the use of proxy military forces to undermine U.S. 
allies, as you have referred to in your statements.
    The threat to the United States in 2015 not only includes 
states and transnational organizations that have the intent and 
the capability to harm America, the United States also faces a 
threat from the growing global disorder that its enemies and 
adversaries are exploring and exploiting.
    The Islamic State, for example, is pursuing a strategy that 
both breaks strong states, as it broke Iraq, and preys upon 
power vacuums in failed states, as it is doing in Libya. It has 
worked to provoke and expand a Sunni-Shia sectarian war since 
its origins in Iraq in 2004. And that sectarian war is now 
engulfing the region and spreading around the world. We have a 
fundamental driver of instability in that war.
    In addition, Iran is helping to accelerate that sectarian 
war and actually expand it. The Iranians are supporting the 
Assad regime through a comprehensive strategy that includes 
military resources, such as trainers, advisors, and funding. 
And Iran has actually backed the Assad regime, which is 
deliberately starving its own people, dropping heinous barrel 
bombs on civilian targets, torturing family members of its 
opponents, and gassing its own people. These are war crimes 
committed primarily against Sunni. And the perpetuation of the 
Assad regime is one of the major accelerants of the 
radicalization of the Sunni as well as the Shia populations. 
And without Iran, the regime would not have stayed in power 
this long. In fact, Tehran has gone so far as to recruit Shia 
volunteers to fight in Syria, not only from Iran, but all the 
way from Afghanistan. And so, they are increasing the sectarian 
scope of this battle.
    In addition, another major driver of instability right now 
is the collapse of states. We have seen, during the Arab 
Spring, the governments of Tunisia and Egypt change. And, of 
course, in Libya, Yemen, Syria, and Iraq, all of which were 
challenged by the Arab Spring, we have failed or failing 
states. And this is what ISIS, the Islamic State, is 
exploiting.
    The Islamic State has a strategy. It is not simply a 
terrorist organization that aims to produce violence. They 
actually state their strategy, their strategic goals, in their 
English-language publications. Right now, ISIS's strategic 
intent is to remain and expand; that is to say, to remain in 
Iraq and Syria, and to expand beyond the borders of that 
original caliphate that it claimed. And my analysts at the 
Institute for the Study of War assess that ISIS is operating 
actually in three rings: an interior ring in Iraq and Syria, a 
near-abroad ring in the lands that were parts of the historical 
caliphate, and a far-abroad ring in Europe, the United States, 
Australia, and Asia. And in the near abroad, ISIS has active 
governorates in Egypt, Libya, Afghanistan, Pakistan, Yemen, the 
Caucasus, Algeria, and Nigeria.
    It is in this context that we must evaluate ISIS and the 
campaign against ISIS inside of Iraq and Syria. We have watched 
ISIS transfer its signature capabilities from Iraq into places 
such as Egypt. And I am happy to talk about that in any 
questions that you might have. But, as we think about the 
requirements to defeat ISIS, we must recognize that we have a 
global challenge. That does not mean that U.S. troops need to 
be everywhere that ISIS is, but, rather, that the United States 
needs to use military force as well as its diplomacy, all of 
the nation's instruments of power, to break ISIS's capability 
to fight, because it is an apocalyptic enemy, and its will is 
not going to break.
    And, unfortunately, though we may talk about desiring to 
contain ISIS in Iraq and Syria, we have to recognize, in the 
first year of the campaign against ISIS, ISIS is no longer 
contained in Iraq and Syria, and we have drawn the wrong lens 
on the global problem that we face.
    The Chairman. Thank you very much.
    Brian.
    [The prepared statement of Dr. Kagan follows:]

                Prepared Statement of Dr. Kimberly Kagan

    The United States faces national security challenges in 2015 of a 
scope and scale that we have not encountered since the end of the cold 
war. The Islamic State in Iraq and al-Sham (ISIS) has seized control of 
terrain in Iraq and Syria, declared itself a caliphate, and aims not 
only to reify that claim but also to provoke an apocalyptic war with 
the West. ISIS is challenging al-Qaeda, the terrorist organization from 
which it sprung, as the leader of the global jihadist movement. Russia, 
a nuclear power, is waging a crypto-war in Ukraine and is using its 
military capabilities to intimidate NATO. The United States and Iran 
have signed a nuclear deal that will relieve sanctions in ways that 
will likely increase Iran's malign behavior in the Middle East, which 
already includes the use of proxy military forces to undermine U.S. 
allies. China is laying claim to areas in the South China Sea and is 
using its increasing military might to enforce those claims.
    The threat to the United States in 2015 includes not only states 
and transnational organizations that have the intent and capability to 
harm America. The U.S. also faces a threat from the growing global 
disorder that its enemies and adversaries are exploiting. The Islamic 
State, for example, is pursuing a strategy that both breaks strong 
states and preys upon power vacuums in failed states. It has worked to 
provoke and expand a Sunni-Shia sectarian war since its origins as al-
Qaeda in Iraq in 2004. That sectarian war is now engulfing the region 
and spreading around the world.
    Iran is helping to accelerate and expand sectarian war. The 
Iranians are supporting the Assad regime through a comprehensive 
strategy, including military resources such as trainers, advisors, and 
funding. That Alawite regime is deliberately starving its own people, 
dropping heinous barrel bombs on civilian targets, torturing family 
members of its opponents, and gassing its own people. These are war 
crimes committed primarily against Sunni. The perpetuation of the Assad 
regime is one of the major accelerants of the radicalization of Sunni 
as well as Shia populations, and without the Iranians, the regime would 
not have survived this long. Tehran has gone so far as to recruit its 
own people as ``volunteers'' to fight in Syria, and has mobilized Shia 
from as far away as Afghanistan to enter this sectarian battle.
    All of these developments have led to the growth of dangerous power 
vacuums. The world has witnessed the collapse of governments and 
states. Governments changed in Tunisia and Egypt during the Arab 
Spring. Libya, Yemen, Syria, and Iraq, all challenged by the Arab 
Spring, are failed or failing states. The Islamic State, therefore, has 
room to grow in the voids where government once was and Iran's 
counterstrategy is making the problem much worse.
    The Islamic State announced its intent to ``remain and expand'' in 
November 2014. The slogan, which appeared on the cover of its English 
language magazine, conveyed its strategic objectives: to remain in Iraq 
and Syria and to expand beyond their borders. My analysts at the 
Institute for the Study of War assess that ISIS is operating in three 
rings: an Interior ring, consisting of Iraq and Syria; a Near Abroad 
ring in lands that were parts of historical Caliphates; and a Far 
Abroad ring in Europe, the United States, Australia, and Asia. In the 
Near Abroad, ISIS has active governorates, or wilayats, in Egypt, 
Libya, Afghanistan and Pakistan, Yemen, the Caucasus, Algeria, and 
Nigeria.
    The analysts at the Institute for the Study of War have observed 
that ISIS has brought signature capabilities and campaigns from Iraq to 
Egypt, where it is now pursuing a campaign against Egyptian Security 
Forces in the Sinai modeled on the ``Soldiers Harvest'' campaign that 
eroded the Iraqi Security Forces' capabilities and control in Mosul, 
Iraq in late 2013. That historical campaign's signature weapon, the 
House-Borne IED (HBIED), destroyed the houses of Egyptian security 
forces in Sinai repeatedly this summer. The United States has seen the 
impact of the fall of Mosul, and it should be extremely concerned about 
a capable terrorist organization that is trying to thin security forces 
in internationally significant terrain, such as the Egypt-Israel 
border.
    The United States must therefore evaluate its efforts against ISIS 
in Iraq and Syria in this wider global context. President Obama, in 
September 2014, declared his intent to ``degrade and ultimately destroy 
the terrorist group known as ISIL,'' the government's acronym for the 
Islamic State. The international coalition against ISIS speaks of its 
mission slightly more modestly, using the military doctrinal term 
defeat (meaning to break the enemy's will or capability to fight) in 
lieu of destroy (meaning physically to render an enemy's combat 
capability ineffective until it is reconstituted).
    Defeating ISIS is a correct mission statement for the activities of 
the United States. It does not mean U.S. troops must be everywhere that 
ISIS is, or that military force is the only instrument that should be 
used. Rather, defeating ISIS requires using military force, diplomacy, 
and all the instruments of U.S. national power to break the 
organization's capability to fight, since the will of an apocalyptic 
enemy is not likely to break. Some in policy circles might hope that 
ISIS could be contained in Iraq and Syria. But unfortunately, ISIS has 
already spread beyond those areas, as I have noted. The opportunity for 
containing ISIS in Iraq and Syria has passed. The opportunity to defeat 
it in Iraq and Syria in ways that collapse its global reputation and 
capabilities is fleeting.
    The United States is not succeeding at defeating ISIS in Iraq and 
Syria. Make no mistake, the United States and the international 
coalition have been essential to limiting ISIS's expansion and 
reversing some of its gains. Airstrikes in Iraq have been vital to 
helping ground forces retake terrain and degrade ISIS. The U.S. has 
helped the Iraqi Security Forces recover some territory that ISIS had 
seized, such as the very important gain in Tikrit. ISIS has gained new 
terrain in Ramadi, however, and still retains its safehaven in Mosul. 
This is not surprising. The U.S. has not provided support to the Iraqi 
Security Forces in ways sufficient to render them sufficiently 
effective against this enemy, such as close air support.
    The problems of the Iraqi Security Forces (ISF) at this time stem 
from the government's lack of a monopoly on the use of force, an 
unsurprising consequence of the long delay in providing any U.S. 
military support to Iraq and then constraining that support to levels 
inadequate to meet the crisis Iraq faced. Iranian-backed proxy forces 
thus took the field shortly after the fall of Mosul and have gained 
influence from the reliance the Iraqi Government must place on them. 
The Iranian proxies are different from the popular mobilization of Shia 
volunteers that have also taken the field. The popular mobilization has 
largely remained under the control of Iraq's clergy and political 
parties. But the Iranian-backed groups have asserted their own command 
and control. They include Katai'b Hezbollah, which the United States 
designated as a terrorist organization, and Asai'b Ahl al-Haq, the 
Lebanese Hezbollah-trained militia responsible for kidnapping and 
killing five U.S. soldiers in Iraq in 2007, among many other American 
and Iraqi deaths it has caused.
    Since the fall of Ramadi, the Iranian-backed militias have 
deliberately chosen campaign objectives different from those designated 
by Iraq's Prime Minister, Haider al-Abadi, in order to throw Abadi's 
strategy off track and take control of the military situation. They are 
motivated by the determination they share with their Iranian masters to 
drive the U.S. out of Iraq once more and install pliable Iranian 
clients--a role in which these groups' leaders fancy themselves----
permanently in Baghdad. In recent weeks, they have threatened Iraqi 
officials in order to ensure that they do not advance the Prime 
Minister's vital and popularly supported reforms. They or another 
Iranian-backed element have kidnapped Turkish workers in order to 
compel Turkey to change its policies in Syria. And they are increasing 
violence among Shia in vital cities such as Baghdad and Basra. The 
Iranian-backed militias are in a showdown with the Prime Minister, and 
the future of the Government of Iraq and the unity of the country rely 
on the Prime Minister winning this very real contest for power.
    The U.S. is trying to counter ISIS as though it is the only enemy 
on the battlefield, when, in fact, it is but one of the terrible actors 
driving the global sectarian war. A strategy that tries to empower Iran 
and help Tehran expand its influence throughout the region will 
inevitably fail. It is actually making things worse. Exclusive focus on 
the Islamic State has also led the U.S. to ignore the growing threat of 
al-Qaeda's affiliate in Syria, Jabhat al-Nusra.
    Jabhat al-Nusra poses a threat to the United States for several 
reasons. It is strong, growing, and effective, and it creates momentum 
for global al-Qaeda, which is still a real threat to the United States. 
It hosts the Khorosan Group, elements of al-Qaeda core that are 
plotting to attack the West. It recruits foreign fighters from a global 
network who will eventually bring the fight to their home countries. It 
also precludes many of the political and military solutions that the 
United States seeks. It violently eliminates moderate opposition from 
the battlefield; it was the organization that killed, kidnapped, and 
dispersed the group of roughly fifty U.S. vetted and trained rebels 
introduced this summer. It opposes political transition or working with 
the West. It is intertwined into courts, administration, and command 
structures in rebel-held Syria. Jabhat al-Nusra embeds itself in 
existing opposition civilian and military structures and gradually 
remakes them in al-Qaeda's image. It is therefore stealthier, more 
intertwined with social and military groups, and harder to defeat than 
ISIS. Jabhat al-Nusra uses more patient means than ISIS to achieve its 
objectives, but those objectives are no less dangerous: namely an 
emirate for al-Qaeda in Syria that is a part of al-Qaeda's global 
caliphate.
    The United States needs to recalibrate its policy to the security 
realities that we face. A strategy that tries to compartmentalize the 
ISIS threat from other drivers of regional and global instability will 
fail.

STATEMENT OF BRIAN KATULIS, SENIOR FELLOW, CENTER FOR AMERICAN 
                    PROGRESS, WASHINGTON, DC

    Mr. Katulis. Chairman Corker, Ranking Member Cardin, and 
members of the committee, I am grateful to have the chance to 
appear before you today.
    At the outset, my bottom-line assessment of the overall 
campaign to counter ISIS 1 year since it began is that the 
United States and its coalition partners have fallen short and 
have failed to meet their potential to counter ISIS. The coming 
year offers an important opportunity to make the necessary 
course corrections to place this campaign on a stronger 
footing. And the responsibility for that is a shared one, one 
that the administration bears the primary burden for, but also 
Congress is an important part of that dialogue.
    The three main reasons for the incomplete results are:
    Number one, many of the countries engaged in the campaign 
have not made the effort to degrade and defeat ISIS its number 
one priority in the region. This is true for the United States 
under the Obama administration, which has seen its top priority 
in the past year as securing a nuclear deal with Iran. This is 
true for many of the key Arab Gulf countries, like Saudi 
Arabia, which shifted their focus a few months into the start 
of the anti-ISIS campaign, and shifted resources to Yemen just 
after we had initiated strikes in Iraq and in Syria. This is 
also true for the actions of our NATO ally, Turkey. If you look 
at Turkey's actions, it seems to indicate that they see a 
bigger threat from Kurdish separatist groups in the Assad 
regime compared to ISIS.
    The second factor is the lack of reliable, capable ground 
forces that are motivated to counter ISIS. There are some 
exceptions to this, including some of the Kurdish groups 
operating in northern Iraq and northern Syria. And we have seen 
their capacity to actually take back territory from ISIS, in 
coordination with U.S. and coalition airstrikes.
    The third factor which explains why I think we have fallen 
short is the lack of sufficient attention to political and 
power-sharing dynamics in both countries. These political and 
power-sharing dynamics give rise to the strong sense of 
grievance in many of the Sunni communities in Iraq and Syria. 
This has created a political vacuum that has been exploited by 
extremist groups like ISIS. And ISIS is only one of the many 
extremist groups operating in this territory.
    The main remedy to address these challenges is, I think, a 
stronger and more coherent effort by the United States to 
synchronize all aspects of its articulated anti-ISIS strategy 
and to develop a much more integrated approach to the region. 
Importantly, the anti-ISIS coalition efforts need to be 
coordinated with other key aspects of U.S. security and 
diplomatic engagement in the region, especially the proposed 
military arms transfers and increased security cooperation with 
partners in the region that the Obama administration has 
proposed in the aftermath of the Iran deal.
    At this moment, I do not see, as an analyst, a coordinated, 
integrated strategy. Without that clearer strategy, all of 
these different pieces of what the United States is doing on 
the security front, on the diplomatic front, could actually end 
up accelerating the fragmentation that we see in some of the 
regions, rather than arrest it. And that is why I think it is 
key, at this moment, at this pivotal juncture, 1 year into the 
campaign, that we need to shift our focus to that broader 
landscape.
    Very briefly, I think the Obama administration put in place 
the right concept of a coalition with more than 60 countries 
working on five lines of effort. My written testimony analyzes 
how we are doing on those five lines of effort. The sum total 
is that it is desperately incomplete and that we can do better 
to actually work with coalition partners to strengthen all five 
lines of effort.
    Secondly, in Iraq, I actually think the United States has a 
stronger approach that is integrating the political, 
diplomatic, and economic engagements relative to Syria. This is 
not to state that Iraq is out of the woods, but there is a much 
more integrated strategy, there is much more to work with, when 
it comes to institutions inside of Iraq. And I think it is been 
a story of several steps forward, several steps back.
    In Syria, I think Dr. Kagan and I and many are in full 
agreement that U.S. policy is in need of a major course 
correction. Achieving that course correction is easier said 
than done, in the context of today's Middle East, where you 
have multiple actors--state actors, like Iran, as was 
mentioned, but also non-state actors--getting engaged in this 
conflict. The recent increased internationalization of the 
conflict, with Russia's increased presence, needs to actually 
force us to talk about what is our realistic end state here. 
And, at this moment, U.S. policy has not provided sufficient 
clarity.
    In conclusion, I think that the United States is at a 
really important pivotal moment in its position in the region, 
and this next year is an important point to try to reprioritize 
the fight against ISIS. This opportunity, I think, again, 
presents the Obama administration and Congress to build a new 
national consensus that elevates these challenges. I think the 
lack of an authorization for the use of military force, the 
lack of consensus on this, is yet another example of how we as 
a society, we as a country, have not found a way to elevate 
this as a priority.
    I have several thoughts on how we integrate these different 
pieces, but I look forward to the discussion and thank you 
again for inviting me to appear today.
    Thanks.
    [The prepared statement of Mr. Katulis follows:]

                  Prepared Statement of Brian Katulis

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for this opportunity to appear before you today to 
discuss Syria, Iraq, and the fight against the Islamic State of Iraq 
and al-Sham, or ISIS. I have structured my testimony today around five 
main points:

    1. Overall assessment of the campaign.
    2. The broader regional security and political context for the 
anti-ISIS campaign.
    3. The anti-ISIS coalition efforts 1 year into the campaign.
    4. Iraq.
    5. Syria.
              overall assessment 1 year into the campaign
    At the outset, my bottom line assessment of the overall campaign 1 
year since it began is that the United States and its coalition 
partners have fallen short in the effort to counter ISIS. The next U.S. 
President will inherit the problem of ISIS. But the coming 16 months 
offer an opportunity to make important course corrections and place the 
anti-ISIS strategy on a stronger footing.
    The United States mounted the anti-ISIS campaign in reaction to the 
group's surprisingly rapid advances across Iraq and Syria in the summer 
of 2014. The campaign has helped key partners in Iraq's governing 
authorities and some countries in the region, such as Jordan, develop a 
more effective response to the group's rise.\1\ Nonetheless, the 
campaign has not moved beyond a mix of limited tactical successes and 
setbacks.
    The primary reason for these incomplete results is that many of the 
countries engaged in the anti-ISIS campaign have not made the effort to 
degrade, dismantle, and defeat ISIS their top priority over the past 
year. The Obama administration's number one priority in the region over 
the past year was securing a diplomatic deal with Iran on its nuclear 
program. The fact that the administration and Congress have not been 
able to arrive at a consensus over an authorization of the use of 
military force after 1 year also suggests that the anti-ISIS campaign 
has not been a leading priority.
    Key regional partners in the anti-ISIS coalition, including Saudi 
Arabia, shifted their focus just months into the start of the anti-ISIS 
campaign and diverted resources to Yemen.\2\ The actions of Turkey's 
Government, a NATO ally and member of the anti-ISIS coalition, seem to 
indicate that it sees a bigger threat to its interests from Kurdish 
separatist groups and the Assad regime in Syria than from terrorist 
groups such as ISIS and al-Qaeda affiliate al-Nusra Front.\3\ But now 
with an Iran nuclear deal completed, there is a possible opportunity to 
shift the focus to actions that enhance regional stability and 
marginalize the terrorists and extremists operating in the region, 
including ISIS.
    A second key reason for the incomplete results is the lack of 
reliable ground forces that are motivated, capable, and equipped to 
counter ISIS effectively in many parts of the region. Airstrikes alone 
clearly will not effectively degrade and defeat ISIS. This does not 
mean the United States should send large numbers of ground troops--
doing so would amount to repeating the mistakes of the past decade. 
Rather, this past year has demonstrated that there is a need for more 
reliable and capable partners that are motivated to counter ISIS. In 
some parts of northern Iraq and northern Syria, various Kurdish forces 
have taken territory from ISIS, offering an example of what can be 
achieved with capable and reliable ground forces.\4\
    A third key reason for the incomplete results of the anti-ISIS 
campaign 1 year into the effort is the lack of sufficient attention to 
the political and power-sharing dynamics that have given rise to a 
strong sense of grievance among large sectors of the Sunni Muslim 
communities in Iraq and Syria. Groups such as ISIS have fed off of this 
dynamic and exploited the political vacuums in parts of Iraq and Syria. 
Thus far, the anti-ISIS campaign has not done enough to help these 
communities create the space to define a counter-ISIS political 
alternative.
    The main remedy to address these challenges is a stronger U.S. 
effort to synchronize the various aspects of its anti-ISIS strategy 
with the recently proposed efforts to counter Iran's destabilizing 
regional role.\5\ In essence, the United States needs to advance a 
clearer, more compelling, and proactive strategy for its engagement in 
the Middle East and move beyond the reactive, ad hoc, and tactical mode 
of operations that has dominated policy for years.
    The recent Obama administration proposals to increase security 
cooperation and military transfers to partners in the wake of the Iran 
nuclear deal merit close consideration and must be analyzed in the 
context of the broader regional security efforts underway, including 
the anti-ISIS campaign.\6\ Sending arms without having a more 
integrated political and diplomatic strategy for the region could end 
up contributing to greater fragmentation. Increased arms transfers to 
Gulf States also need to be carefully balanced with the additional 
assistance the Obama administration has provided to meet Israel's 
security needs, which remain significant and will grow if Iran 
increases its support to its proxies, such as Hezbollah and Hamas.
    Sending more U.S. troops to train, advise, and assist security 
forces in Iraq and possible partners in Syria, together with 
airstrikes, may eliminate some immediate terrorist threats and produce 
short-term security gains. Providing more advanced weapons systems to 
regional security partners might help reassure them in the face of 
concerns about Iran's role. But these actions on their own will not 
lead to the marginalization and ultimate political defeat of terrorist 
movements such as ISIS that are shaking the fragile state system in the 
Middle East.
                the middle east's shifting environment 
                 and the crisis of political legitimacy
    The anti-ISIS campaign and the ongoing conflicts in Iraq and Syria 
are part of a broader period of transformation in the Middle East. The 
region has entered an unpredictable and fluid period of transition 
involving increased competition for influence among key countries and 
the growing power of nonstate actors, including new categories of 
Islamist extremist groups, such as ISIS.\7\
    The region's top powers are engaged in a multipolar and 
multidimensional struggle for influence and power. This competition is 
multipolar because it includes Shia-Sunni sectarian divisions as 
witnessed in the tensions between Saudi Arabia and Iran, but it also 
involves tensions between different countries of the Gulf Cooperation 
Council, as well as Turkey, over the status of Islamist movements. In 
this multipolar competition, no single government is likely to emerge 
as a dominant power or hegemon. Rather, the structure of this 
competition is likely to strain the overall state system of the Middle 
East for the foreseeable future.
    The competition is multidimensional because it involves both 
traditional forms of power projection--such as military aid and 
economic assistance--as well as new tools, including direct investments 
in media outlets, nonstate actors, and political movements. The 
region's wealthier, more politically stable states compete with each 
other by proxy--and, in some cases, directly--on the ground in poorer 
and more politically polarized states.
    A core part of the challenge in this current regional dynamic is 
the crisis of political legitimacy for some of the major states in the 
region. Some governments lack support and a sense of allegiance from 
key sectors of their populations. This crisis has deep roots in the 
region's history over the past century, and the political legitimacy 
crisis is linked to the some governments' failure to provide basic 
security and a sense of inclusion, ownership, and justice to some of 
their citizens.
    Groups such as ISIS have exploited this lack of political 
legitimacy and thrived in the vacuums that have emerged over the past 
decade in the Middle East. ISIS is part of a wider phenomenon of 
extremist ideologies taking root and the threat from terrorist networks 
mutating in dangerous and unpredictable ways. This broader context 
helps explain why the anti-ISIS campaign has had such limited impact 
after 1 year: A campaign against a group like ISIS requires a holistic, 
integrated approach that uses all aspects of U.S. power in coordination 
with partners, and it will require a longer time horizon to degrade and 
ultimately defeat these groups politically.
    A central part of a long-term strategy for defeating ISIS and 
stabilizing the Middle East must involve some forward thinking about 
the possible governance structures that would most likely succeed in 
providing basic law and order, justice, and vital services while also 
enjoying the popular legitimacy of its people. In both Iraq and Syria, 
one possible sustainable end state is a decentralized federal structure 
of government--one that allows greater autonomy and a devolution of 
power from the center. This idea is not a call for an imposed partition 
or a breakup of these countries; past experience of international 
actors trying to delineate new borders without the consent of the 
people has contributed to the problems witnessed today in the Middle 
East. Rather, the long-term strategy for stability in the Middle East 
will likely require extensive negotiations over the balance of power 
within key countries. In Iraq, that discussion has been ongoing for 
much of the past decade and there is a clearer possible pathway forward 
than there is in Syria today.
     the anti-isis coalition: the right concept with major gaps in 
                             implementation
    Last year, the Obama administration took some important first steps 
in building a sound policy framework to combat ISIS through its efforts 
to build an international coalition with key Middle Eastern powers. 
This framework was essential--having stakeholders from the region 
engaged is a necessary component in any long-term effort aimed at 
defeating ISIS and producing sustainable security in the Middle East. 
This impressive coalition now has more than 60 formal members working 
together on five main lines of effort: \8\

    1. Providing military support to partners.
    2. Impeding the flow of foreign fighters.
    3. Stopping ISIS's financing and funding.
    4. Addressing humanitarian crises in the region.
    5. Exposing the true nature of ISIS.

    In addition to building this coalition, the United States also 
worked with relevant international organizations, including the United 
Nations, to structure the dialogue aimed at developing an effective 
response to ISIS. As with all international efforts, followup and 
implementation are as important as the structure--and this points to 
one major area for increased efforts to realign the strategy in the 
next 16 months.
    Overall, the anti-ISIS coalition's efforts along these five main 
areas are largely incomplete. The coalition has provided crucial 
military support to partners in Iraq and the broader region to counter 
the ISIS threat, but the absence of viable ground troops in key 
theaters has limited the overall impact of airstrikes conducted by the 
U.S.-led coalition in many parts of Iraq and most parts of Syria.
    On impeding the flow of foreign fighters, several countries in the 
coalition--including Australia, the United Kingdom, Canada, Germany, 
Morocco, Spain, and Jordan--have passed new laws and undertaken law 
enforcement and intelligence actions aimed at stopping recruitment, but 
it is unclear whether these efforts have stemmed the flow of thousands 
of recruits from around the region and the world in a substantial way. 
Moreover, there appear to be no clear metrics for measuring success on 
this front in a way that defines the flow of foreign fighters to a 
broader range of extremist groups, including al-Qaeda's affiliate, al-
Nusra Front.
    As with foreign fighter recruitment, several countries--including 
the United Arab Emirates, Kuwait, and Jordan--have launched financial 
task forces and new efforts to try to stem the flow of financing to 
ISIS, but it remains unclear how much these efforts are affecting the 
group's ability to fund itself, particularly as it has acquired quasi-
state status in controlling key sources of revenue and access to basic 
services in parts of Iraq and Syria.
    The humanitarian crisis resulting from the turmoil in Iraq and 
Syria continues unabated, as witnessed in the increased flows of 
refugees and displaced persons from those two countries this summer. 
Nearly 15 million people are displaced in Iraq and Syria: There are 4 
million Syrian refugees, 7.6 million people displaced inside of Syria, 
and 3 million people displaced inside of Iraq.\9\ The international 
community's response to the needs of the millions uprooted by the 
conflict has fallen far short.
    On the last line of effort, countering ISIS's message and 
propaganda and exposing its true nature, the coalition has had a 
coordinated and focused effort. Earlier this summer, the United States 
and the United Arab Emirates launched an online messaging center to 
counter ISIS propaganda on social media platforms, and the leaders of 
some countries in the region, such as Jordan, have been strongly vocal 
in condemning the violent extremism of ISIS.\10\ But the fact that the 
ISIS movement has continued to go viral beyond Syria and Iraq--with 
groups and followers pledging allegiance in places that include Libya, 
Egypt, Yemen, Nigeria, and Afghanistan \11\--points to the incomplete 
nature of the response.
    Overall, the structure and framework of the coalition and how its 
lines of effort are defined seem correct, but the implementation and 
integration of different measures have been less successful. There does 
not appear to be a clear identification of the tasks, roles, and 
responsibilities expected from each member of the coalition.
    In sum, more effort is needed to strengthen and coordinate all 
components of the campaign and place more emphasis on the nonmilitary 
aspects of the effort required to degrade and defeat ISIS. In Iraq, a 
strategic approach that integrates the military, diplomatic, and 
economic components of U.S. and coalition engagement is currently 
clearer than it has been in Syria over the past year.
         iraq: mixed results in the first year, an opportunity 
                   to move forward in the coming year
    In the past year, the center of gravity in the anti-ISIS campaign 
for U.S. policy has been Iraq. It is the area where the United States 
has the greatest room to maneuver militarily and diplomatically and the 
coalition finds some of its most capable partners on the ground to 
counter ISIS.
Lessons learned from the past year
    The Obama administration began the anti-ISIS campaign in Iraq last 
year by linking additional security assistance and airstrikes to a 
diplomatic effort to help produce an Iraqi national government that has 
ruled somewhat more inclusively than the previous government and 
broadened its outreach to key communities, but this political effort 
remains incomplete. The United States utilized additional security 
assistance as leverage to help the Iraqis agree upon a new Prime 
Minister. The current Prime Minister, Haider al-Abadi, has been trying 
to take more steps to address the lack of inclusion and the extreme 
challenges in providing basic governance and dealing with corruption in 
Iraq.\12\
    On the security front, the anti-ISIS military campaign has produced 
limited and tentative advances in certain parts of northern and central 
Iraq, but the effort remains incomplete and directly linked to building 
the capacity of Iraqi Security Forces. The addition of limited numbers 
of U.S. troops to support Iraq's Security Forces have produced some 
results. These military actions were necessary first steps to arrest 
the rising tide of ISIS. At the same time, the Obama administration 
made the correct decision to limit the number of U.S. ground troops 
sent back to Iraq--sending a larger force would have repeated the 
mistakes of the previous decade, when the U.S. troop presence became a 
rallying cry and recruitment tool for terrorist organizations such as 
al-Qaeda.
    Three key lessons learned from the past year of increased U.S. 
engagement in Iraq include:

  <bullet> Iraqi internal political dynamics can be shaped and 
        influenced to achieve more positive political outcomes, within 
        limits. The fact that the United States, working with other 
        outside powers, created incentives to motivate Iraq's political 
        leaders to make leadership changes demonstrates that the tough 
        efforts of diplomatic engagement combined with other forms of 
        assistance can help produce some positive results. Much work 
        remains incomplete in helping Iraq develop an inclusive 
        approach to governing, and the current Prime Minister faces a 
        difficult, fractured, and often dysfunctional political system. 
        But a system exists for negotiations over power, and the 
        discussion continues with many key sectors of Iraq's 
        population, including the dialogue between the Kurdistan 
        Regional Government and Iraq's central government.
  <bullet> Security assistance to Iraqi forces is important but needs 
        to be linked to efforts to boost the legitimacy and credibility 
        of sustainable governing structures in Iraq. After spending 
        more than $25 billion on security assistance in Iraq for nearly 
        a decade,\13\ the collapse of the Iraqi Security Forces in key 
        parts of the country last year demonstrates the importance of 
        linking all security assistance efforts to governing 
        authorities that have the population's broad support.
  <bullet> Economic challenges will continue to strain the overall 
        effort in Iraq. The global drop in oil prices presents severe 
        budget challenges to Iraq's Government and will continue to 
        affect the political dialogue inside of Iraq. In order to 
        enhance the credibility of Iraq's governing structures as a 
        viable alternative to the model that ISIS has developed in some 
        areas, the strategy will also need to focus on how economic 
        resources are allocated.
Looking ahead to the coming year
    Iraq has many assets and structures in place that Syria does not, 
and the United States has a deeper and more extensive knowledge of 
Iraq's internal dynamics. Degrading and ultimately defeating ISIS in 
Iraq will require a continued focus on all elements of the strategy--
the political, the diplomatic, and the military. Often, U.S. debates 
get stuck on the tactical questions of how many troops the nation might 
send to train and advise Iraqi forces. More U.S. ground troops on their 
own are unlikely to fundamentally alter the political dynamics and 
balance of power in the Iraqi political system. Continued, active 
diplomatic engagement will be necessary on several fronts to help Iraqi 
leaders produce an inclusive, national response to the threats posed by 
ISIS.
    For the most part, the Obama administration has reengaged in Iraq 
after several years of neglect, which has helped develop an initial 
response that has mostly stopped the advances of ISIS, with a few 
notable exceptions such as the ISIS seizure of Ramadi earlier this 
year.
    In the coming year, U.S. strategy will need to continue its efforts 
to build capable Iraqi Security Forces and conduct targeted strikes 
against ISIS. It will also need to safeguard against the potential 
long-term threats posed by armed groups operating outside of the 
control of the Iraqi governing authorities, such as the popular 
mobilization forces.
    Most importantly, U.S. strategy must continue to remain engaged 
diplomatically on helping Iraqis achieve the right balance of power in 
their internal political system. There is a risk that the anti-ISIS 
campaign could produce a more fractured Iraq. Ultimately, a heavily 
decentralized system of government may be the only viable pathway to 
help Iraq's governing structures gain greater support and political 
legitimacy and offer an alternative to ISIS.
              syria: in need of a major course correction
    The current state of affairs in Syria is dismal. The structure of 
the overall conflict remains increasingly fragmented and the 
devastating impact that the war has had on most Syrians is difficult to 
comprehend, with more than 200,000 people killed and about half of the 
country's residents pushed out of their homes over the past 4 
years.\14\
    The Assad regime in Damascus, with support from regional actors 
such as Iran and Hezbollah and global powers such as Russia, has been 
able to remain in power years after the United States and other 
countries initially called on President Bashar al-Assad to step down. 
But the past year has presented major challenges to the Assad regime, 
as it has lost territory to a range of terrorist organizations and 
other opposition forces.
Lessons learned from the past year
    The gap between the stated goals of U.S. policy--a negotiated 
political settlement with a transition from Assad's leadership--and the 
key tactics being used to achieve those goals, including support for a 
viable third-way opposition to ISIS and the Assad regime, remains wide. 
After receiving support from Congress to boost the training of 
opposition forces last year, the Obama administration has not produced 
meaningful results in the overall battlefield dynamics. Airstrikes and 
limited, targeted special forces raids have done some damage to ISIS 
and its leadership, but these measures have not fundamentally altered 
the movement's ability to control territory and expand its grip in 
certain parts of the country.
    The recent moves by Russia to increase its support to the Assad 
regime \15\ add a new layer of complexity to the dynamics in Syria and 
demonstrate that other actors will likely continue seeking to fill 
perceived vacuums and asserting themselves in actions when the United 
States and its anti-ISIS coalition partners are unwilling or unable to 
produce results.
    Three key lessons from the past year of U.S. policy in Syria 
include:

  <bullet> Building alternative armed forces opposed to ISIS is 
        difficult, cannot be done halfheartedly, and must be connected 
        to a wider long-term strategy to produce peace and stability. 
        The U.S. effort to build an armed opposition to ISIS has not 
        succeeded thus far, and it has had no discernable impact on the 
        structure of the conflict in Syria. The airstrikes and some 
        limited, targeted cross-border raids have had some impact on 
        the ISIS movement, but these represent tactical gains and have 
        not fundamentally altered the nature of the conflict in Syria. 
        The effort has been slow to ramp up. Vetting possible forces to 
        ensure that they do not have ties to terrorist groups and will 
        not defect to other camps is a major challenge. Also, there is 
        great difficulty in finding Syrians who are willing to pledge 
        to fight ISIS but not turn their weapons on the Assad regime.
  <bullet> ISIS is a leading terrorist challenge, but it is not the 
        only one in Syria. The vacuum produced in many parts of Syria 
        has been filled not only by ISIS but also al-Nusra Front, al-
        Qaeda's affiliate, and several other smaller terrorist 
        organizations. The U.S.-led airstrikes have exacted some costs 
        on these movements and may have prevented international 
        terrorist attacks, but they have not fundamentally degraded 
        these movements.
  <bullet> The Assad regime's brutal actions continue to delegitimize 
        it in the eyes of many Syrians. The majority of deaths in Syria 
        are the result of the Assad regime's actions. Salvaging key 
        institutions that are part of the current Syrian Government 
        should be an objective of U.S. policy; the continued breakdown 
        of Syrian institutions will only accelerate the country's 
        overall fragmentation. But any notion that the Assad regime 
        will be part of a long-term plan to stabilize and unify the 
        country is not connected to today's reality.
Looking ahead to the coming year
    The United States needs to chart a new course on Syria and work 
with the international community and key regional actors to help 
deescalate the conflict and move back to some notion of a negotiated 
settlement. This process will take years, and this next year could be 
pivotal in establishing a framework for a long-term resolution to 
Syria's conflict. But this will require the Obama administration to 
give a much sharper focus and higher priority to Syria. Without a long-
term strategy to stabilize Syria, the massive humanitarian challenges 
witnessed in the ongoing refugee crisis will continue.
    The growing involvement of outside actors, including Russia, 
mirrors a wider internationalization of the civil war in Syria. With 
each passing month, regional and other outside powers become more 
deeply invested in the proxy conflict playing out across the country. 
The Gulf States and Turkey have focused largely on groups organized 
across the north. Jordan is playing an increasingly overt role in the 
southern front along its border. Russia and Iran continue to appear to 
double down on their support for the Assad regime in Damascus.
    These international players continue to battle each other through 
their proxies on the ground, fueling the conflict for which Syrian 
civilians continue to the pay the price. But this greater 
internationalization may provide a window for diplomacy in the coming 
year. It is hard to see how any of these sponsors achieve their 
objectives through protracted proxy warfare. This only promises to 
splinter what remains of the Syrian state. A strategic stalemate will 
eventual emerge but at extremely high costs.
    A truly integrated regional strategy would leverage U.S. support to 
the Saudi-led coalition in Yemen and proposed weapons sales to the Gulf 
States in order to achieve a greater alignment of objectives in Syria. 
This means improving focus on ISIS and cutting off assistance to the 
most radical elements among their proxies. The United States gulf 
partners need help in Yemen and against Iran in the region. The United 
States need theirs against ISIS in Syria.
                               conclusion
    The United States and its coalition partners have taken some 
important steps to counter the threats posed by ISIS in Iraq, Syria, 
and beyond, but the steps are incomplete and require a higher priority 
focus than in the first year of the campaign. The strongest component 
of the campaign has been Iraq, and even there, the results are mixed. 
The weakest aspect of the strategy has been Syria, and a major 
recalibration of that effort is required. Keeping the actions within 
the framework of the coalition that the Obama administration has 
assembled is essential, but tighter coordination among the members of 
the coalition along all five lines of effort is necessary.
    The United States has an extensive network of security partnerships 
with a wide range of actors in the Middle East. No other outside power 
rivals the range of relationships the United States currently has. At a 
time of increased activism by actors in the region, the United States 
needs to define a clearer strategy for engagement that takes into the 
account the roles and actions of the region's countries. This is a new 
period of complex transition.
    For several decades during the cold war, the strategic framework 
for U.S. engagement in the Middle East was defined by the rivalry with 
the Soviet Union. In the immediate post-cold-war environment, the 
United States redefined its strategy in the gulf region as dual 
containment of Iraq and Iraq. The 2003 Iraq war marked a shift away 
from this strategy, and the strategic consequences of that shift are 
still underway. For much of the past decade, U.S. policy in the Middle 
East has been marked by a reactive, crisis management posture. The next 
year presents an opportunity to advance a more proactive agenda--one in 
which the question of how many U.S. troops are on the ground is an 
important but ultimately tactical consideration.
    The coming year presents an opportunity for the Obama 
administration and Congress to build a new national consensus that 
elevates the challenges posed by ISIS to a higher priority than they 
have been in the past year. One possible vehicle for advancing this 
dialogue is a renewed focus on the authorization for the use of force 
measure proposed by the Obama administration.\16\ In the wake of the 
Iran deal, Congress and the Obama administration should renew the 
discussion on developing a more sustainable legal framework for U.S. 
actions in the fight against ISIS and use those discussions as an 
opportunity to develop a stronger long-term strategy to defeat ISIS and 
stabilize the Middle East.

----------------
End Notes

    \1\ Hardin Lang, Peter Juul, and Mokhtar Awad, ``Recalibrating the 
Anti-ISIS Strategy: The Need for a More Coherent Political Strategy'' 
(Washington: Center for American Progress, 2015).
    \2\ David Welna, ``Air War In Yemen May Come At The Expense of 
Coalition Against ISIS,'' NPR, March 27, 2015.
    \3\ David Dolan and Nick Tattersall, ``In fight against Islamic 
State, Turkey's Erdogan sees chance to battle Kurds,'' Reuters, July 
28, 2015.
    \4\ Matt Bradley and Joe Parkinson, ``A Personal War: America's 
Marxist Allies Against ISIS,'' The Wall Street Journal, July 24, 2015.
    \5\ Peter Juul, Brian Katulis, and Shlomo Brom, ``Countering Iran's 
Destabilizing Actions in the Middle East'' (Washington: Center for 
American Progress, 2015).
    \6\ U.S. Department of State, ``Remarks on Nuclear Agreement with 
Iran,'' Press release, September 2, 2015.
    \7\ This analysis is drawn in part from field research conducted by 
the Center for American Progress throughout the Middle East from 2013 
to present and analyzed in a series of reports produced by the Center, 
including Hardin Lang, Mokhtar Awad, and Brian Katulis, ``Fragmenting 
Under Pressure: Egypt's Islamists Since Morsi's Ouster'' (Washington: 
Center for American Progress, 2014); Brian Katulis, Hardin Lang, and 
Mokhtar Awad, ``Jordan in the Eye of the Storm: Continued U.S. Support 
Necessary with Ongoing Regional Turmoil'' (Washington: Center for 
American Progress, 2014); Brian Katulis and Peter Juul, ``U.S. Middle 
East Policy at a Time of Regional Fragmentation and Competition: 
Lessons for U.S. Policy from the Past Three Years'' (Washington: Center 
for American Progress, 2014); Brian Katulis, Hardin Lang, and Vikram 
Singh, ``On the Brink: Managing the ISIS Threat in Iraq'' (Washington: 
Center for American Progress, 2014); Brian Katulis, Hardin Lang, and 
Vikram Singh, ``Defeating ISIS: An Integrated Strategy to Advance 
Middle East Stability'' (Washington: Center for American Progress, 
2014); Hardin Lang, Mokhtar Awad, Ken Sofer, Peter Juul, and Brian 
Katulis, ``Supporting the Syrian Opposition: Les-sons from the Field in 
the Fight Against ISIS and Assad'' (Washington: Center for American 
Progress, 2014); Lang, Juul, and Awad, ``Recalibrating the Anti-ISIS 
Strategy.''
    \8\ U.S. Department of State, ``The Global Coalition to Counter 
ISIL.''
    \9\ International Organization for Migration, ``IOM: Displacement 
in Iraq Tops 3 million,'' Press release, June 23, 2015; Jethro Mullen, 
``Syrian refugee population rises above 4 million, U.N. says,'' CNN, 
July 10, 2015.
    \10\ David Ignatius, ``Jordan leads the Arab world in the fight 
against extremists,'' The Washington Post, February 16, 2015.
    \11\ David D. Kirkpatrick, ``ISIS Video Appears to Show Executions 
of Ethiopian Christians in Libya,'' The New York Times, April 19, 2015.
    \12\ BBC, ``Iraqi PM Haider al-Abadi moves to tackle corruption,'' 
August 9, 2015; Deutsche Welle, ``Sunnis sign up to fight `Islamic 
State' in Iraq,'' August 5, 2015.
    \13\ David Zucchino, ``Why Iraqi army can't fight, despite $25 
billion in U.S. aid, training,'' Los Angeles Times, November 3, 2014.
    \14\ United Nations, ``Alarmed by Continuing Syria Crisis, Security 
Council Affirms Its Support for Special Envoy's Approach in Moving 
Political Solution Forward,'' Press release, August 17, 2015.
    \15\ Michael R. Gordon and Eric Schmitt, ``Russian Moves in Syria 
Pose Concerns for U.S.,'' The New York Times, September 4, 2015.
    \16\ Jeremy W. Peters, ``Obama to Seek War Power Bill from 
Congress, to Fight ISIS,'' The New York Times, February 10, 2015.

  STATEMENT OF MICHAEL BOWERS, VICE PRESIDENT OF HUMANITARIAN 
      LEADERSHIP AND RESPONSE, MERCY CORPS, WASHINGTON, DC

    Mr. Bowers. Chairman Corker, Ranking Member Cardin, thank 
you for inviting me to testify today about the worsening 
humanitarian crisis in Syria and Iraq. As you know, Mercy Corps 
has been working in the Middle East and North Africa for more 
than three decades. We currently operate in Syria, Iraq, as 
well as Lebanon, Jordan, Turkey, and now, unfortunately, 
Greece.
    Senators, I have just returned from Lesbos, Greece, which, 
as you know, is a island not just a few kilometers from the 
Turkish coast. This island is now a way station for thousands 
of refugees in their long journey to Europe. There I saw many 
people who have risked everything they have--that they have 
to--on their person--to flee for their lives. They are all 
survivors of a violent, protracted crisis that urgently 
requires a political solution. What we are seeing in Europe is, 
indeed, an emergency, but it is with an a much larger and 
complex crisis.
    Tragically, Syrians and Iraqis are worse off today than 
they were a year ago, whether they are in Syria, Iraq, or 
living in neighboring countries. Regional host countries that 
are receiving the vast majority of refugees face particular 
strain on their resources. The longer the war drags on, the 
more new challenges we face. Humanitarian aid to assist those 
fleeing extreme violence in Syria and Iraq is critical, and we 
are thankful the U.S. Government has been so generous. Still, 
ending this crisis and its impact on the region requires more 
than writing checks. These response efforts continue to be just 
a drop in the bucket compared to the exponentially growing 
needs. The humanitarian community is struggling to assist 
hundreds of thousands of innocent people. And, to be frank, we 
are nearing a breaking point. The sheer number of people is 
staggering. Their needs grow ever greater and more desperate by 
the day, and there is still no end in sight.
    Let me tell you a little bit of what we are seeing in 
Syria. As you know, protection continues to be the number-one 
challenge facing Syrians who are still in the country. On a 
daily basis, civilians living outside the areas where the 
coalition is fighting ISIS face unrelenting aerial attacks, 
including the threat of barrel bombs dropped by the Syrian 
regime. The Syrian regime also continues to restrict access to 
humanitarians such as ours. In some areas, we wait up to 8 
months to access people in need. An entire generation of Syrian 
children and youth are growing up in this war zone. Instead of 
worrying about their schoolwork, they worry whether they or 
their family will be killed the next day.
    For the first time, we are starting to see changes of food, 
aid, and systems in Aleppo governate, where we work. Many 
people originally that we assisted over the last few years, 
this was supplemental food. It is now coming to the stage where 
they do not have enough to eat without our aid. Hunger is not 
far away for these people.
    We are also seeing a new trend when fighting of ISIS 
threatens towns and villages. People are fleeing closer to the 
border of Turkey. Everyone is on the phone, literally, with 
relatives, many already outside of the country, so they can 
make a quick decision. These tipping points are what you are 
seeing on the news today, in terms of the European migration 
flow.
    In Iraq, we are witnessing a displacement of large 
proportions, with more than 3 million internally displaced. 
People are moving around the country because they do not feel 
safe. Importantly, while needs across ethnic and sectarian 
lines are there, most are--the displaced are Sunni Arabs. 
People are fleeing violence and repression from ISIS as well as 
a conflict generated by Iraqi Security Forces 
counteroffensives, and they need protection. Underlying this 
are unresolved ethnic divisions which continue to fester.
    The humanitarian crisis within Iraq risks become something 
of a forgotten crisis overshadowed by, and conflated with, the 
war in Syria. The Iraq crisis has its own roots and its own 
nuances. The humanitarian response in Iraq should not be seen 
as another dimension of the response to the wider Syrian 
regional crisis.
    While this situation is bleak, there are a number of 
concrete steps that Congress can take now to help the people in 
Syria and Iraq. In addition to my full written testimony, I 
would like to leave the committee with at least two key 
recommendations.
    First, provide funding for humanitarian assistance and 
longer term needs. As of this month, a joint U.N. and NGO 
funding appeals for Syria and Iraq are funded at barely 30 and 
46 percent, respectively. This week alone, the World Food 
Programme cut food assistance for one-third of Syrian refugees. 
That is around 230,000 refugees in Jordan. It is more important 
than ever to shore up funding for the various humanitarian 
accounts in the FY16 budget.
    Second, support programs that address the underlying causes 
of conflict that can build resilience and promote better social 
cohesion. After 4-plus years of war, families are tired of 
growing aid dependency, and, despite the risks, they want to 
rebuild and repair their schools, clinics, and water systems, 
where possible. They want to address the underlying conflict 
issues that fuel the cycle of violence. But, because of the way 
assistance is compartmentalized within our government, 
humanitarian aid does not fully allow for these type of 
programs. In Syria and Iraq, we need more multiyear, 
multisector programs that integrate the humanitarian and the 
development.
    Finally, perhaps most importantly, humanitarians are not 
obviously the solution to these crisises. I must urge you to 
work with the Obama administration to find and work on a 
political solution to the war in Syria and support growth for a 
more accountable government in Iraq. As Americans, we can do 
better to end this violence. U.S. leadership must take a 
decisive action and push for a lasting peace. But, where is the 
determined and resilient diplomatic push, I ask? The moment for 
the push is now.
    In conclusion, I would like to say that, though our--
through our work and our partnerships in the region, we have 
been humbled and touched by the grace and dignity of Syrians 
and Iraqis alike, as well as by the generosity of their hosts. 
Despite the many profound challenges they face, we are also 
heartened by the unwavering faith of Syrians everywhere that 
one day there will be a peaceful resolution. It is with that 
goal in mind that we will obviously continue our work.
    I wish to sincerely thank the committee for its focus in 
this tremendous important issue and for extending me to the 
privilege of testifying today.
    Thank you.
    [The prepared statement of Mr. Bowers follows:]

                  Prepared Statement of Michael Bowers

    Chairman Corker, Ranking Member Cardin, thank you for inviting me 
to testify before the U.S. Senate Committee on Foreign Relations today 
about the spiraling humanitarian crisis in Syria and Iraq, and for the 
close attention you have paid to this complex and protracted crisis. I 
am here today in my capacity as Vice President of Humanitarian 
Leadership and Response with Mercy Corps, a global humanitarian and 
development nongovernmental organization (NGO) that responds to 
emergencies and supports community-led development in more than 40 
countries around the world. Mercy Corps has been working in the Middle 
East and North Africa for more than three decades; we currently run and 
manage programs in Syria and Iraq, as well as in Lebanon, Jordan, 
Turkey, and now Greece.
    Senators, I just returned from Lesbos, Greece, this week. This 
island is a waystation for many refugees in their long journey to 
Europe. There I saw thousands of people who have risked everything they 
had left to flee for their lives. They are all survivors of a violent, 
protracted crisis that urgently requires a political solution. What we 
are seeing in Europe is an emergency within a much bigger and more 
complex crisis.
    Tragically, Syrians and Iraqis are worse off today than they were a 
year ago, whether they are in Syria, Iraq, or living in neighboring 
countries. Regional host countries that are receiving the vast majority 
of refugees face particular strain on their resources. The longer the 
war drags on, the more new challenges emerge. Humanitarian aid to 
assist those fleeing unimaginable violence in Syria and Iraq is 
critical, and the U.S. Government has been incredibly generous. Still, 
ending this crisis and its impact on the region requires more than 
writing checks.
        humanitarian response efforts: reaching a breaking point
    I can say without hesitation that for Mercy Corps and other 
humanitarian agencies, Syria and Iraq present some of the most hostile 
and complex environments in which we have ever worked.
    In the face of extraordinarily difficult circumstances, through our 
local partnerships with Syrian and Iraqi civil society groups, we have 
been able to respond to humanitarian needs on a large scale.
    In Syria, Mercy Corps is among the largest providers of food 
assistance as well as essential supplies that people need to survive 
and maintain a modicum of dignity and small comfort, such as blankets, 
toothbrushes, soap, and cooking utensils. We are also working hard to 
strengthen access to clean water and sanitation services, as well as a 
means to earn income and keep local markets going. Our programs meet 
the needs of an estimated 500,000 vulnerable Syrian civilians every 
month. Over the last year in Iraq, we met the critical needs of 365,000 
displaced Iraqis and 385,000 Syrians through cross-border operations 
providing cash assistance, support to Iraqi civil society, access to 
education and programs that give communities the tools to address 
conflicts. Funding for these programs comes from contributions of the 
United States Agency for International Development; the Department of 
State's Bureau of Population, Refugees and Migration; and other 
institutional donors.
    These response efforts continue to be just a drop in the bucket 
compared to the exponentially growing needs. The humanitarian community 
is struggling to assist hundreds of thousands of innocent people who 
need our help. To be direct--we are nearing a breaking point. The sheer 
number of people in need is staggering, their needs grow ever greater 
and more desperate by the day, and there is still no end in sight.
                    humanitarian situation in syria
    Let me tell you what we are seeing in Syria. At this juncture, more 
than 11.6 million Syrians are on the run and half of those people are 
children. According to the U.N., an estimated 7.6 million Syrians have 
fled their homes and are still trying to survive in Syria. Another 4 
million have been forced to seek safety in neighboring countries. 
Syria's prewar population is estimated to have been 22 million. By this 
accounting, to date more than half of the country has been displaced by 
the conflict.
    Protection continues to be the number one challenge facing Syrians 
who are still in the country. On a daily basis, civilians living 
outside the areas where the coalition is fighting ISIS face unrelenting 
aerial attacks, including the threat of barrel bombs dropped by the 
Syrian regime. In ISIS-held areas like Mare in Northern Syria, we heard 
reports from multiple sources, including medical personnel, of chemical 
agents being used against civilians; some of our own staff were 
impacted. Medical professionals throughout the country are overwhelmed 
and targeted. The Syrian regime continues to restrict access--in some 
areas, agencies wait up to 8 months for permission to access people in 
need. On a daily basis, our partners, as a matter of common practice, 
painstakingly negotiate access across numerous conflict lines in order 
to deliver lifesaving aid.
    An entire generation of Syrian children and youth are growing up in 
a war zone. Instead of worrying about their schoolwork, they worry 
whether they or their family might be killed. They are frustrated and 
isolated--young women in particular rarely leave their homes. Young men 
and women both experience a sense of powerlessness and humiliation.
    For the first time since we started delivering aid into the Aleppo 
governorate 3 years ago, families we spoke to this week said that they 
depend on our food aid to survive; their personal resources are now 
completely exhausted. Without this aid they would go hungry. A mother 
of 10 in Aleppo told us that she has no money left to buy groceries, 
but with the monthly food basket her children will not go hungry. 
During August alone, we responded to the needs of more than 400,000, 
delivering 2,600 tons of food. We are observing a new trend in our 
northern operating area: When fighting with ISIS threatens towns and 
villages, people are moving closer to the border with Turkey so they 
can cross if things get too bad. Everyone is on the phone with 
relatives, many already outside of the country, so they can make a 
decision in real time.
                     humanitarian situation in iraq
    In Iraq, we are witnessing displacement of massive proportions with 
more than 3 million internally displaced Iraqis. People are moving 
around the country because they do not feel safe. Importantly, while 
needs cross ethnic and sectarian lines, most of those displaced are 
Sunni Arabs. People are fleeing violence and repression from ISIS, as 
well as the conflict generated by the Iraqi Security Forces' 
counteroffensives, and need protection. Underlying this, unresolved 
ethnic divisions continue to fester.
    The humanitarian crisis within Iraq risks becoming something of a 
``forgotten'' crisis--overshadowed by, and conflated with, the war in 
Syria. The Iraqi crisis has its own roots and its own nuances. The 
humanitarian response in Iraq should not be seen as another dimension 
of response to the wider Syrian regional crisis.
    Although currently overshadowed by the dangers of ISIS, weak 
governance driven by sectarian divisions threatens to magnify the scale 
of the crisis in Iraq, and over the longer term poses a threat to 
stability. The displacement crisis compounds existing fragility, 
accentuates the risk of fragmentation and amplifies human suffering. 
Moreover, the conflict overlays Iraq's vulnerability to other man-made 
and natural disasters--like the continued structural vulnerability of 
the Mosul Dam. While it is unknown just how fragile the dam is, recent 
Iraqi Security Forces' activity urging people to relocate from villages 
nearby the dam in Nineweh governorate does prompt renewed concern. 
Imagine the humanitarian consequences of a serious dam breach: more 
than a million displaced; flooding that would overwhelm the city of 
Mosul and even put the U.S. Embassy in Baghdad under several feet of 
water; and untold implications for an already tense and violent society 
and for a humanitarian response that is already stretched beyond 
capacity.
    A proactive strategy is essential now to address the root causes of 
violence in Iraq and to prepare Iraq for the protracted challenges that 
will no doubt remain even after ISIS is defeated. Iraqis are concerned 
about the protection issues and human rights abuses taking place now, 
but are even more concerned about what will happen after the current 
fighting ends. If history is any guide, communities will face violent 
retribution and collective justice in the aftermath, and we need to act 
now to prevent atrocities. We also need to support the work of 
grassroots organizations that are leading response efforts--including 
in areas where needs are great but access is increasingly difficult for 
international actors--and avoid segmenting aid or favoring particular 
regions or demographics in Iraq, which in some cases inadvertently 
fuels sectarianism.
    If the Obama administration and the U.S. Congress continue to take 
a narrow and predominantly short-term approach to addressing 
humanitarian needs in Iraq, the cycle of violence will surely continue 
and most likely escalate. Interventions that only address the symptoms 
of the conflict have the real potential to do more harm than good by 
creating dependencies and sidelining the voices of Iraq's fledgling 
civil society and government stakeholders, both local and central. This 
includes government bodies like the Ministry of Labor and Social 
Affairs, Non-Governmental Organization (NGO) Directorate, 
Reconciliation Committee at the Prime Minister's office, provincial 
councils and the Iraqi Civil Society Committee, which are seeking to 
lead reconciliation efforts and address the underlying drivers of the 
conflict: poor governance and political grievances. Some notable 
progress has been made on this front with dedicated funding from the 
Department of State for peace building and reconciliation efforts, with 
Iraqi civil society in the lead, but this work needs greater attention.
     challenges of humanitarian assistance in isis-controlled areas
    In both Syria and Iraq, aid agencies like Mercy Corps are 
increasingly walking a fine line between the humanitarian imperative to 
respond to the tremendous human suffering in areas under the control of 
sanctioned terrorist groups such as ISIS, and the need to protect U.S. 
taxpayer-funded aid from falling into the hands of such groups.
    This is a tough challenge to navigate. Aid agencies are conducting 
operations where the need is greatest--inevitably high-risk areas--yet 
we lack adequate legal protections. The result is a chilling effect on 
our operations: Banks are terrified of doing business with Syrian 
humanitarian aid groups because they fear that the U.S. Government will 
crack down on them. Humanitarian actors are reticent to work in areas 
of real need due to fears that any diversion of aid--no matter how 
small--will cost them their reputation or shut down their ability to 
provide aid elsewhere. This leaves innocent civilians trapped in 
besieged areas, left to fend for themselves.
    Mercy Corps--like other professional humanitarian organizations--
brings decades of global experience, rigorously tested standards and 
robust rules of engagement, which we clearly communicate to armed 
actors in our areas of operation. Where red lines are crossed, we will 
not hesitate to suspend operations. Where aid is captured, we do not 
hesitate to hold those responsible to account and seek to regain that 
aid. The humanitarian community has developed operating protocols that 
have proven effective in countering aid diversion and opening up access 
in non-ISIS areas. We want to roll these out further in ISIS areas, 
too. But, to do that with any measure of confidence, we urgently need 
clarity on U.S. Government policy toward humanitarian negotiations with 
groups such as ISIS, as well as a crisper delineation of the space we 
have to operate.
                  efforts to counter violet extremism
    While speaking to the destruction caused by ISIS, I would like to 
take this opportunity to highlight the administration's strategic 
leadership in advancing a new global policy framework on countering 
violent extremism focused on mitigating and preventing violent 
extremism.
    The February White House Summit on CVE--Countering Violent 
Extremism--has truly helped to usher in a new global dialogue on how to 
strengthen civilian efforts to mitigate the grievances and root causes 
that fuel cycles of violence and lure communities into joining or 
supporting violent groups.
    On September 29, President Obama will lead a high level leader's 
summit in New York focused on advancing this framework. We urge 
congressional attention and support to advance this emerging, but 
potentially pivotal, policy framework.
                      recommendations for congress
    While the situation is bleak, there are a number of concrete steps 
that Congress can take now to help the people of Syria and Iraq. I 
would like to leave the committee with the following four key 
recommendations:

    First, provide adequate funding for humanitarian assistance and 
longer term needs. As of this month, the joint U.N. and NGO funding 
appeals for Syria and Iraq are funded at barely 30 percent and 46 
percent, respectively. This week, the World Food Programme cut food 
assistance for one-third of Syrian refugees, including 229,000 people 
in Jordan.
    It is more important than ever to shore up funding for the various 
humanitarian accounts in the FY16 budget--Migration and Refugee 
Assistance (MRA), International Disaster Assistance (IDA), Food for 
Peace (FFP), and Emergency Refugee and Migration Assistance (ERMA). 
Specifically, we urge that these accounts be funded at no less than the 
following levels--$3.059 billion for MRA, $1.895 billion for IDA, 
$1.466 billion for FFP, and $50 million for ERMA.
    We also need funding for programs that address root causes 
underlying the Syrian crisis among others. We urge you to support 
funding levels of $6.1 billion for Economic Support Funds (ESF), 
including no less than $72.5 million in Economic Support Funds (ESF), 
both base and Overseas Contingency Funds (OCO), in Iraq to help local 
governments and service ministries respond to citizens' needs and 
rebuild trust and legitimacy in communities in areas throughout the 
country. Continue to support allocation of $25 million in Iraq for 
conflict response programming, as directed in the FY15 omnibus spending 
bill in FY16, and consider expanding to cover civil society support 
efforts.
    Finally, support funding of no less than $100 million for the 
Complex Crisis Fund (CCF), a crucial flexible account that enables 
civilian agencies around the world to undertake rapid stabilization, 
prevention and crisis response activities.

    Second, support programs that address the underlying causes of 
conflict, build resilience and promote social cohesion. After four-plus 
years of war, families are tired of dependency. Despite the risks, they 
want to rebuild and repair schools, clinics and water systems. They 
want to address the underlying conflicts that fuel cycles of violence. 
And the people we work with want opportunities to earn a living. But 
because of the way assistance is compartmentalized, humanitarian aid 
does not fully allow for these types of programs.
    An overreliance on emergency response--without simultaneous support 
to programs that seek to address the underlying causes of crises--is 
unsustainable. In Syria and Iraq, we need more multiyear, multisector 
programs that integrate ``humanitarian'' and ``development'' and that 
support local and national actors--including the private sector, local 
government and civil society--who usually have the greatest knowledge 
and capacity to operate effectively.

    Third, rebalance risk and operations in high-risk environments by 
providing reasonable legal protections for humanitarian actors. The 
U.S. and other major donors do not have adequate legal frameworks to 
protect humanitarian actors from criminal prosecution against overly 
aggressive counterterrorism legislation. We have worked with the 
administration toward a solution on this issue for years, to 
unsatisfactory outcomes. We urgently need the Senate to accelerate 
efforts to reform U.S. counterterrorism frameworks and laws that slow 
or impede effective humanitarian operations or access.
    Finally, humanitarians are not the solution to these crises. I urge 
you work with the Obama administration to urgently seek a political 
solution to the war in Syria and support the growth of a more 
accountable government in Iraq. Our world leaders must take decisive 
action and push for a lasting peace. Humanitarians are being hung out 
to dry, left to address the Syria crisis by themselves. Where is the 
diplomatic push? The moment for this push is now. With the U.N. General 
Assembly and G20 coming up in quick succession, Congress needs to urge 
the Obama administration to work with other P5 governments, among 
others, to invest the diplomatic energy necessary to end the war in 
Syria. In Iraq, the escalating violence of recent months reminds us 
that the international community needs to aggressively invest in 
conflict mitigation, reconciliation and good governance as part of a 
long-term vision for Iraq's stability. Following the establishment of a 
new government in Baghdad in September 2014, this is an especially 
critical time for the central government to respond positively to 
demands for political inclusivity.

    In conclusion, I would like to say that through our work and 
partnerships in the region, we have been humbled and touched by the 
grace and dignity of Syrians and Iraqis, as well as by the generosity 
of their hosts, despite the many profound challenges they face.
    I wish to sincerely thank the committee for its focus on this 
tremendously important issue, and for extending me the privilege of 
testifying today.

    The Chairman. Well, thank you very much. And thank you all 
for your testimony and your expertise being shared with us.
    I want to go back to try to understand exactly where we 
are. But, I want to thank Chairman Menendez for convening us, 
back in August, early September of 2013, at a moment in time 
when, had we taken the steps that this committee authorized on 
a bipartisan basis, I am absolutely convinced we would not be 
seeing the mass problem that we are seeing spread across Europe 
today. I am absolutely convinced of that. And, instead of the 
administration going ahead with a 10-hour operation--it is 
going to involve no combat boots on the ground at a time when 
there was actually a free Syrian opposition that was moderate, 
that was really functioning and building momentum--instead of 
that happening, that did not occur. Matter of act, we did not 
even call our partners, in many cases. They just watched that 
on CNN.
    Mr. Bowers, I know most of us have been to the refugee 
camps both in Jordan and Turkey, and you are right, their hosts 
have been incredible--Incredible. What the people in those 
countries have done, and others, is truly heartwarming, to see 
the way they have brought these people in. At the same time, I 
have been there multiple times and told them what we were going 
to do to support them, relative to, again, going back against 
Assad. And it has not happened. We certainly have a role to 
play, especially now, in triage. And I think you will see 
bipartisan consensus around that.
    So, then we tried to push for a no-fly zone, which would 
have had a dual purpose of keeping those who were displaced in 
their own country, but also would have kept the border from 
Turkey being so porous and allowing people to go into Syria and 
Iraq. And, of course, we could not do that, because it might 
cause American troops to be--or American Air Force to be--
against Assad, and we could not allow something like that to 
happen, even though Assad--it was our stated policy--that he 
had to go.
    So, since that time, he has been barrel-bombing his own 
citizens and neighborhoods, not unlike those that people here 
in the audience come from, just average neighborhoods--been 
barrel-bombing them, torturing them in prison. We saw, at the 
Holocaust Museum presentation, what he is doing to his own 
people. And so, now people obviously have spread and left the 
country. Half the citizens of Syria today are displaced. Again, 
and we have a hand in that, because we did not do what we said 
we were going to do, and then we would not follow on with a 
policy.
    So, I have a question. I, first, want to understand what is 
going on. We have this deal with Iran. And, just as it is 
completed, Iran says that there will be no United States 
involvement, no other country involvement, in taking Assad out. 
We now have Russia flying over Iran and Iraq, delivering 
equipment to Assad. Our partners. Our partners.
    We have got some quasi-border deal with Turkey. They wanted 
to do something much stronger. We would not do that.
    You talk about the 60 countries in our coalition. I do not 
see much really occurring. We have a train-and-equip program, 
which I said at the time was just eyewash--$500 million just to 
make it look like we were doing something. I know today there 
was testimony in Armed Services where 60 were trained. I 
thought it was 54. And now four are left.
    I thought there was just zero. So, we have four people left 
out of this program, which obviously shows a lack of 
commitment.
    I do not understand where we are, so I would just like to 
ask our two more war-oriented witnesses: What is happening? 
Where is Russia in this? And are we actually encouraging--with 
a wink and a nod--Russia to prop up Assad? Is that part of our 
strategy in beating back ISIS? Just explain to us--we are going 
to have some administration witnesses in, but I would just like 
to understand, from your perspective, what you think is really 
happening here, because there is obviously no real commitment, 
if you will, on the ground yet. When I say ``on the ground,'' 
in the country, relative to ISIS. Or Assad. And Assad, by the 
way, is the genesis--the genesis of what we are seeing on the 
television and all of these people leaving their country. But, 
go ahead.
    Dr. Kagan. Senator Corker, thank you for your question.
    I will provide my assessment of what I think is a turning 
point, or a potential turning point, in the Syrian conflict, 
and an assessment of a turning point in Iraqi politics that 
need to be the guidelines or the parameters in which we, the 
United States, formulate our strategy.
    Within Syria, the regime has taken significant losses over 
the course of the spring, and in particular, lost Idlib 
province, which is right up against the Alawite areas that 
Bashar al-Assad calls home. And, in fact, we should be very 
concerned because one of the leaders of the capture of that 
particular province was al-Qaeda affiliate, Jabhat al-Nusra, 
which is also a grave threat to U.S. interests.
    That said, as Assad has had to think about how to continue 
to maintain his regime and the outposts that he is maintaining 
in far corners of Syria, he has been under increasing pressure, 
and it has been clear, really since 2013, that he has relied on 
outside supporters, particularly the Iranians, to provide 
manpower, command and control and advisors, in order to retain 
his regime while under pressure.
    I assess that he faces similar pressure right now, but that 
the Iranians do not have as much to give as they have before. 
They have provided quite a lot. And I do assess that the 
Russians mean to provide the Assad regime with some support in 
order to make sure that the regime does not collapse, and 
perhaps in order to regain terrain for the regime.
    At the same time, we have ISIS poised for continued 
operations, perhaps even into central Syria, and we have al-
Qaeda affiliate Jabhat al-Nusra poised either for an offensive 
in Latakia or elsewhere in central Syria in a very threatening 
way.
    And so, if I were Assad, I would be concerned. And I think 
the reason why we are seeing international actions right now to 
support Assad is that he has every reason to be concerned, but 
also because the United States has not offered anything 
meaningful, in terms of military support, to the Syrian 
opposition that is fighting him in a way that will allow them 
to help defeat him or allow us to help save the lives of 
innocent civilians.
    Furthermore--just one more point--inside of Iraq, whereas--
where we see Prime Minister Abadi trying to make important 
reforms that are essential to securing the institutions of the 
Iraqi Security Forces that we seek to partner with, we also see 
Iranian Shia-backed militias, Iranian-backed militias 
kidnapping Turkish hostages--workers. We see them kidnapping, 
actually, Iraqi figures and politicians and, in general, 
challenging, through the use and threat of use of military 
force, the very power of Prime Minister Abadi and the 
institutions that he supports.
    So, in fact, the United States is facing a counteroffensive 
right now between Iran and Russia, and it is taking place on 
both fronts: Iraq and Syria.
    The Chairman. Brian, if you would be brief, I have gone a 
little bit over my time, but what is----
    Mr. Katulis. It is----
    The Chairman [continuing]. If you would, specifically, What 
exactly is occurring right now with Russia?
    Mr. Katulis. Well, I think it is still too early to really 
tell. And the fact that the United States--this administration 
seems to be caught off guard by this--and this is not the first 
episode, both in Iraq and Syria in the past 18 months, where we 
seem to have been surprised--you know, the blitzkrieg of ISIS 
throughout central Iraq points to, I think, some areas where we 
might explore some oversight and why there is this seeming lack 
of anticipatory intelligence.
    I think--the thing I would say about Russia at this point 
is, clearly what their stated goal here, and what President 
Putin said, there seems to be at least some truth to it. They 
have a deep concern about the Islamist extremism. I would argue 
that offering support to a regime like the Assad regime, which 
has contributed to that Islamic extremism, is probably the 
worst way to defeat this threat.
    When we come back to what I think is a point of consensus 
between Dr. Kagan and I, and I think a shared view, is that we 
need to nest our tactics, our different policies in Syria in a 
broader context of a political settlement. And it is something 
that Mr. Bowers has highlighted, as well.
    We do not have that. We have, from this administration, the 
rhetoric of that. And, even today, it is hard to really 
understand how they are--the Obama administration really is 
going to try to deal with this with Russia. Will it talk to 
Russia, or not? I have not seen the latest on this. I would be 
very skeptical that Russia has a clear plan, here, to actually 
help stabilize Syria and then also defeat the threat.
    So, my main conclusion is, I think it is too early to tell. 
I would not give a lot of credit to what Russia is trying to 
do, here, to help. I do not think it is intended to stabilize 
Syria in the holistic sense, in the way that I think we all 
agree is necessary.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, as I listen to your responses, it 
just adds to the complexity of our challenges. It is difficult 
to figure out how we can deal with so many players, including 
Russia and Iran, in the context of what is happening in Iraq 
and Syria and with ISIL.
    The first question I have is: How would you define metrics 
to determine whether we are gaining ground on controlling and 
eliminating ISIL, or not? I mean, we have heard a lot of 
different characterizations of what we want to get done. But, 
can you just--very briefly, how would you judge the success of 
a program to eliminate the threat of ISIL?
    Mr. Katulis. If I could start. And I did this a bit at 
length in my written testimony. I actually think the contours 
of what General Allen and the team that is charged with the 
anti-ISIL coalition, the five lines of effort, I think are the 
start of really good metrics or categories. First is providing 
military support to partners. And I think that can be assessed 
as--that question is complicated to assess, given the 
fragmentation even inside of Iraq, the fact that there are 
different forces, like Kurdish forces and the discussion about 
a Sunni, you know, national guard. In Syria, this is another 
opportunity for oversight from the Congress. If I were someone 
who had voted for funding the arming and training and equipping 
of that program over the last year, I would have a lot of 
questions, because I just do not know what happened there.
    Second, the metric of impeding the flow of foreign fighters 
is--and, as I put in my written testimony, looking at that, 
actually quantifying it, is a difficult thing to do, especially 
when you have a coalition of 60-plus. But, you can look at the 
legal measures, the law enforcement measures, and then also try 
to collect that information, because I do not think our 
intelligence agencies have an accurate read on the flow of 
foreign fighters. And that is defined to ISIS. Let me highlight 
that--what I said before, the other extremist groups, like 
Jabhat al-Nusra and others.
    Third, stopping the flow of financing. Again, right 
category. I am not certain that I see any public or private 
reports coming from the administration or the coalition that 
tells us a little bit about how this is doing. We are 
initiated, at the Center, looking at these five lines of 
efforts. The humanitarian crisis, which was well covered by Mr. 
Bowers, I think is crystal clear. We have all fallen short, and 
we are not observing that.
    And then, lastly, which I think is one of the weakest lines 
of effort, which is exposing the true nature of ISIS, the 
counternarrative, the countering violent extremism. Here again, 
you see piecemeal efforts on the part of the United States and 
some people in the coalition, but you are not seeing the 
results in any way. I think a fair assessment 1 year into this 
campaign, given that ISIS has seen its brand expand to places 
like Libya, Egypt, Nigeria, and other places, we are on a--this 
ad hoc reactive tactical posture, and it is baffling to me, 
because this is a force that is using the very tools that our 
society created: Twitter----
    Senator Cardin. That is very helpful.
    Mr. Katulis. Thank you.
    Senator Cardin. Dr. Kagan, I want to get you engaged on a 
separate issue. If you want to comment more, it will be fine. 
We have had some success, particularly with the Kurdish forces, 
in both Iraq and Syria. But it is complicated. In Iraq, it is 
complicated because of our support for a central government 
that is effective. It is also sensitive for Turkey, and we need 
Turkey as an ally. So, do you have any recommendations on how 
we can handle the Kurdish fighters?
    Dr. Kagan. The Kurdish fighters have been extremely 
important for retaking control of terrain that is predominantly 
Kurdish near the Kurdish-held areas. But, the Kurdish forces 
are not really a power-projection force that can go into Arab 
Iraq or Arab Syria and successfully recover terrain. So, I 
think they are absolutely important to fund, train, and equip 
as a defense against ISIS and as a counteroffensive force, but 
I do not think that they can be the sole force that we fund, 
train, and equip. I remember being in Mosul in 2007-08, when, 
in fact, the Kurds were flying Kurdish flags over Iraqi 
Government buildings. There is no love lost between Kurds and 
Arabs in northern Iraq or Syria, and we need to be very careful 
that we do not inadvertently provoke an ethnic conflict to 
replace the grave sectarian conflict that we already see.
    Senator Cardin. And I would just point out--we have heard 
directly from the Iraqi government on it--they are very 
concerned about a functioning national government and how we 
deal with the Kurdish areas.
    I just want to underscore one thing that the chairman said, 
last Congress we worked together to try to provide 
authorization for helping the moderate opposition in Syria. And 
I think it was a strong bipartisan effort. I am sorry we were 
unable to get to the finish line. I do want to, though, point 
out that a safe zone--a no-fly zone--is a different issue, and 
it is an issue that has a lot of pluses and minuses. We did not 
take that issue up in our committee, and I think you will find 
there are different views on whether a no-fly zone would be 
beneficial, or not, or whether it draws us into more of a 
military conflict.
    To Mr. Bowers, no one is going to disagree that you need 
money to address the humanitarian crisis. The resilience and 
social issues you mentioned in Syria, I find it hard to believe 
that we could be successful in any sustained effort to provide 
that type of a climate. So, we have an immediate crisis and 
people are dying every day. Other than money, what would you 
like to see U.S. leadership do to help people at risk?
    Mr. Bowers. Senator, thank you. I think, just on the issue 
of what else we can do, beyond the humanitarian, I would say 
you would be surprised where we can actually wedge in issues on 
both building resilience, where you can find it, and social 
cohesion. It does exist there, even in such a violent place.
    The reports that we have put out recently would indicate 
that, you know, there are areas of intervention, beyond the 
humanitarian, that can sort of underline and rebuild some of 
that social fabric. So, I would not discount that so quickly.
    Money, of course, is a big issue. Ideally, at this stage, 
if there is hope of a political process that will lead to some 
type of negotiated resolution, you may find people changing 
their mind of exodus, say, to Europe. So, you need to provide--
the world community, and led by the United States and others--
will need to provide that there is a end to this in sight at 
some point, or at least a process put in place that is 
credible, beyond the envoys that we already have.
    The political resolution is what is driving, at the end of 
the day, or lack of, why people are leaving in drove. They 
cannot work legally in these host countries. Most of these 
schools are--even in the camps--to our best of our abilities, 
are not providing the education they want for their children. 
And so, ultimately, they are seeking refuge in another place on 
a permanent basis, most likely.
    Senator Cardin. Thank you.
    Thank you, Mr. Chair.
    The Chairman. If I can qualify for the committee--we had 
officials within the administration pursuing, with Turkey, a 
no-fly zone. Many of us have been there to hear reports of 
their efforts. I supported that along the Turkish border to 
create a place for these people to be, inside their own 
country. As I understand it, when the decision memo got to the 
President, he did not agree to that. So, it was not just me and 
others on this committee pushing for that. There were people 
inside the administration charged with these responsibilities 
that also were pushing for that. And obviously it did not 
occur. I did not mean to imply the committee----
    Senator Cardin. No, no. And, Mr. Chairman, I am not 
suggesting there are not proponents in the administration of 
no-fly zones. All I am suggesting is that, from a congressional 
weigh-in on no-fly zones, we really have not----
    The Chairman. Yes, that is correct.
    Senator Cardin [continuing]. We have not taken a position.
    The Chairman. That is correct. That is correct.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Obviously, this is a huge problem. Coming from a 
manufacturing background, I have solved a lot of problems. It 
starts with acknowledging reality, even when you really do not 
like looking at it, and then setting achievable goals. So, I 
would like to do a quick timeline, because it lays out the 
history of this fight. I have heard, since I joined this 
committee, and from this administration, that we need to find a 
political solution, and I am wondering if that is really a 
realistic goal.
    The Arab Spring began in Tunisia in 2010. In 2011, Bashar 
Assad started slaughtering citizens. There were hundreds 
slaughtered when President Obama declared that Assad should 
step aside, he decided that Mubarak must go and Qaddafi must 
go, without any plan to figure out what happens when they go.
    By 2012, Assad had slaughtered somewhere between 8,000 and 
37,000 of his citizens, and in August 2012, President Obama 
drew a redline on use of chemical weapons. By 2013, there had 
been 100,000 Syrians slaughtered, and, of course, Bashar Assad 
crossed that redline and we did nothing. By 2014, there were 
more than 200,000 Syrians slaughtered. In 2015, the number is 
definitely above that. Now we have 7.6 million Syrians 
displaced within Syria, 4 million refugees, and we are starting 
to see hundreds of thousands flow into Europe.
    I want to talk about Iran's role in the Middle East. 
Anybody dispute that Iran was one of the greatest destabilizing 
factors in Iraq? [No response.]
    So, we definitely won the Iraq war, and then we lost it, 
largely because Iran destabilized it, correct, backing the 
Shiites--militias? [No response.]
    Obviously, Iran is one of the greatest supporters of the 
Assad regime in Syria, as we have seen that spin out of 
control.
    Oh, I failed to mention, in 2011, kind of a key date, 
President Obama made the historic blunder of pulling the 
stabilizing force out of Iraq. I think keeping this force would 
have stabilized and seized a historic opportunity to see a 
Sunni, Shia, and Kurd coalition potentially succeed, and also 
would have helped stop Iran supply overflights into Syria.
    But, Iran is destabilizing Yemen; Lebanon, through 
Hezbollah; Gaza, through Hamas. Are we seeing a common 
destabilizing factor there? Now, to complete the history 
lesson, we just completed this deal with Iran, where the world 
is going to allow tens of billions--eventually hundreds of 
billions--of dollars to flow into the Iranian economy and the 
military to strengthen that destabilizing state sponsor of 
terror. Is there really a political solution that is going to 
be possible in Syria?
    I will start with you, Dr. Kagan.
    Dr. Kagan. I am extremely concerned about the prospect of a 
political solution in Syria, because there are many parties to 
the conflict who do not wish to see a political solution that 
we, the United States, would define as acceptable. Bashar al-
Assad is one, of course, since perpetuation of his power and 
his regime is certainly one of his goals. And I assess that his 
presence at the head of that regime is a driver of 
radicalization through the region.
    A second actor that does not wish to see a political 
solution is Jabhat al-Nusra, the al-Qaeda affiliate inside of 
Syria. And, because Jabhat al-Nusra is intertwined with Syrian 
opposition fighters in combined headquarters, and provides 
high-end military capabilities to those opposition forces, it 
is a credible spokesperson to those forces. They listen to 
Jabhat al-Nusra because they have military capability that is 
wanted. They are actively opposing a political solution.
    Senator Johnson. So----
    Dr. Kagan. So, in short, although I would like to see one, 
I do not actually think that the behavior of different groups 
on the ground is simply going to change in order to enable 
political transition. Rather, I do actually think that 
sometimes diplomacy needs to be backed by force.
    Senator Johnson. Now, talking about the denial of reality, 
I have listened to this administration talk about how, for 
example, in Ukraine, we need to offer Vladimir Putin an off-
ramp. I do not know about you, but all I see Vladimir Putin 
doing is biding his time looking for on-ramps. I am afraid we 
are going to start hearing that pretty quickly. When referring 
to his involvement with Syria he said, ``Oh, we have got to 
offer him an off-ramp.'' No, Putin is looking for an on-ramp. 
And again, why do we talk about a political solution when, let 
us face it, we are not going to have a political solution until 
there is a military victory. Is that not basically true?
    Dr. Kagan. I believe that, without security, human beings 
do not turn to political solutions.
    Senator Johnson. Mr. Katulis, President Obama stated his 
goal: degrade and ultimately defeat ISIS. Are we making any 
progress toward that goal at all? Do you see any kind of 
strategy for defeating ISIS out of this administration?
    Mr. Katulis. I think there is this--excuse me, Mr. 
Senator--there is a strategy on paper, but the implementation 
of that strategy has been lacking in certain aspects. I think, 
in Iraq, there has actually been some decent progress on using 
our leverage to try to get the central government to be more 
inclusive. A different face, a different approach there. The 
integration of these military and diplomatic tools has been 
quite good. The picture in Iraq still is tough, but it has 
arrested the rise of ISIS last year, and has beat it back in 
some cases, and there is a lot to work with.
    In Syria, the gap between the stated administration 
policies, its goals, this goal of a political solution and the 
tactics we have in place, is very wide. In the short run, I 
actually do not see a prospect for a political solution inside 
of Syria at this point. But, if some of these tools that some 
of the Senators have talked about--the discussion about a no-
fly zone or a safe zone--if all of these different pieces, 
which I essentially see as tactics, are wrapped up in a 
strategy that tries to get to some sort of cessation of 
hostilities, some sort of sense of battle lines, which, I 
think, if you see from ISW's maps--in Iraq, you more or less 
have a general sense of the contours, and there is a little bit 
of predictability there; in Syria, that is not the case. A 
political solution is much more viable if we actually see a 
decline in violence, something Mr. Bowers has highlighted, too, 
for the refugee crisis.
    So, today, no, I do not see it. But, we do need to actually 
think about, How do we use these military tools? Because if the 
U.S. starts using military tools with the great power that we 
have without thinking through how this will likely impact a 
fragmented conflict in Syria, we could actually accelerate the 
fragmentation of that state without thinking through what are 
the next steps.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Senator Menendez.
    Senator Menendez. Well, thank you both for your testimony. 
I have to be honest with you, I am bewildered in trying to 
understand the rhyme or reason of our actions as it relates to 
Syria, for sure, and even beyond.
    We have spent an enormous amount of lives and national 
treasure in Iraq. And yet, unless there is political 
reconciliation, where Sunnis feel that they are fighting for a 
country that includes them, we can continue to spend all the 
money in the world; we are not going to achieve our goal there, 
I think.
    In Syria, just simply put, the train-and-equip program just 
came far too late and too feeble. When this committee 
authorized train and assist, the administration just was not 
there. And that might have been a time in which the dynamics 
would have allowed us to have a real effect on the ground by a 
robust train-and-equip program, but we could not get the 
administration there. And now it is so feeble, in part because 
we insist on excluding everyone who wants to fight Assad, 
versus only ISIL. So, at the end of the day, I understand 
testimony before the Armed Services Committee today says that 
there is four or five, actually, that we have trained. That is 
pretty incredible. And I do not know if the American taxpayer 
is going to accept that expenditure of money for that result, 
at the end of the day, not to mention the lack of success that 
we want as it relates to changing the dynamics in Syria.
    This committee passed an Authorization for the Use of 
Military Force in Syria at a time that Assad was using its 
chemical weapons against its own people. And we thought that it 
had succeeded in eliminating all chemical weapons from the 
battlefield. But, in fact, we see that Assad is in the midst of 
barrel-bombing and using chlorine gas as a weapon against his 
own people, and we seem not to want to raise that issue because 
to do so might be a very violation of the success we thought we 
had and the red line that we had drawn.
    I look at the situation with Russia, and I just cannot for 
the life of me, after just having agreed to a nuclear agreement 
with Iran and having spent so many American lives and billions 
of dollars in Iraq, that we cannot at least Iraq, if not Iran, 
not to allow military overflights so that they can take more 
weapons to Syria. And when I read the press reports--and I hope 
they are wrong--when we talk about talking to Russia, we are 
talking--I see questions of deconflicting. The question is not 
deconflicting, the question is, What is Russia doing sending 
more military hardware, trying to prop up Assad, creating an 
airbase in Syria? That is for their own purposes. And yet, we 
have, clearly, Putin trying to use that, as if he cares enough 
about ISIL that that is his primary purpose. But, I--having 
seen Putin in Ukraine, in Georgia, and in so many other places, 
I doubt very much that is his only purpose. It could be an 
additional purpose, but I doubt it is very much his only 
purpose.
    So, I look at all of this, and I just wonder what our 
policy--actually, I do not think there is a policy; there are a 
series of actions, and we are listless, at best, or moribund, 
at worse.
    So, with that as a preface at least to where my concerns 
are, can you help me--I read both of your statements. 
Professor--Dr. Kagan, I read yours, and the 2014 strategy to 
defeat the Islamic State, which proposes, basically, 
orchestrating elements of American political, economic, and 
military power of a scope that would remind us somewhat of the 
Iraq war. And I appreciate your presentation. But, what 
convinces you that we would be more successful this time if we 
employed that than we have been?
    And to you, Mr. Katulis, I--you have argued for the need to 
build reliable partners on the ground. In Iraq, this means 
training and equipping Iraqi Security Forces, Kurdish 
peshmerga, Sunni tribal fighters, while encouraging political 
reconciliation, somewhat reminiscent of the limited efforts we 
put into Libya following NATO airstrikes or the monumental 
efforts we have put in training Iraqi forces. And I appreciate 
your presentation, which builds on that train-and-equip model. 
But, what convinces you that there will be a different result 
than that which we have experienced in places like Iraq and 
Afghanistan, or even Libya, if we pursue your approach?
    So, my first part was to put the premise of my concerns----
    Dr. Kagan. Yes.
    Senator Menendez [continuing]. And hopefully part of 
understanding how your approaches, based upon past experiences, 
could actually change the dynamic now and help deal with some 
of those concerns.
    Dr. Kagan. First, to correct the record, I am not proposing 
the use of force on a scope or scale that we used during the 
Iraq war. And so, there are not numbers associated with my 
recommendations, and I do not--do not--believe that the 
reinvasion of Iraq or reinsertion of 100-some-odd-thousand 
troops is a good idea.
    But, I do not actually think that the question right now 
should be, How do we ensure that we do not get the same results 
as we got before? We actually need to make sure that we do 
not--that we curtail the results of the chaotic situation that 
is happening now. And so, when we look at our strategy and we 
look at our policy and we fear Iraq in 20---in 2007 or 2008 or 
2009, quite rightly, we also have to fear Iraq and the chaos 
that its collapse will cause in 2015, 2016, and 2017. And, as 
we engage with much more modest goals and more modest 
resources, I believe that we need to recognize that we have a 
responsibility, as a country and as--as a country, to make sure 
that the Islamic State does not hold ground, does not gain 
ground, and that we keep a unified Iraqi state in the location 
where Iraq is in order for us to be able to pursue our 
interests and protect ourselves in the Middle East and here at 
home. We need a unified Iraq, and that should be our goal.
    Mr. Katulis. I will be brief, because I know the time is 
short.
    I am not a strong proponent of the train-arm-and-equip as a 
primary tool of our engagement in the Middle East. And I think 
the lesson of the last decade in Iraq and Afghanistan 
demonstrates that is a fixation on tactics, when the broader 
landscape is shifting. The thrust of my written testimony, and 
what I tried to articulate, was that we have a scenario in the 
region right now that, as Senator Johnson mentioned about Iran, 
but I would add to it, complementing it, you have got partners 
in the Gulf Arab States that are actually much more active in 
Syria and in other places, in throwing their weight around, in 
arming and training, and equipping different types of forces--
that has accelerated the fragmentation. The thrust of what I 
tried to say--and this is, I think, easier to do in Iraq, and 
to conceptualize in Iraq, because we understand it, we have 
more legal authorities, more room to maneuver--is to link any 
sort of arm, train, and equip effort to a notion of what is a 
end state, the political end state inside of Iraq. We kind of 
have the contours of that. And the picture is clearer. But, the 
current strategy, as I read it, is not driving towards an end 
state. And I want to be clear, I am not talking about partition 
or something enforced from the outside; I am talking about a 
negotiation over power, which has been going on for years 
inside of Iraq.
    In Syria, I share the same views that I think have been 
expressed here at this hearing, of being baffled about what has 
happened over the last year or so in this effort to create what 
I like to call a third-way force, anti-ISIS, but also opposed 
to the Assad regime. None of that has shifted the battlefield 
to our advantage or towards a viable political solution. That 
is where I think the crux of the debate--where, if we want to 
drill down a little bit more is--some of the things that Dr. 
Kagan and I have been talking about. How do you bring these 
strands together? Because I agree with what you said, Senator. 
We have got a series of different policy initiatives, but they 
are not wedded together, in the sense of, How does it achieve a 
realistic sense of stability inside of Syria that reflects our 
interests and as well as our values, I would say, too?
    Senator Menendez. Just one final comment, Mr. Chair.
    I would just simply say that four or five people on the 
ground as trained entities in the train-and-assist program, 
even as a tactic, could not possibly be a successful tactic to 
try to get the result that we want.
    The Chairman. Thank you.
    Senator Perdue, please.
    Senator Perdue. Thank you, Mr. Chairman. And I want to 
thank you and Ranking Member Senator Cardin for staying on 
this. We have been talking about--we have been distracted by 
the Iran nuclear debate and dialogue over the last few months, 
obviously, but it is only a factor. It is a part of a bigger 
issue.
    And I want to thank Senator Menendez. For the last few 
years, even before I became a more--part of this conversation--
of trying to shed light and put pressure on this 
administration, members of his own party, to try to develop a 
long-term strategy.
    Mr. Katulis, I could not agree more that, I think--and on 
recent months, our top priority has been the nuclear Iran deal, 
for whatever reason, at the expense of developing a long-term 
strategy, not only for ISIS, but our policies in the entire 
region.
    I personally have been very measured about this. I am glad 
to see us moving back to a nonpartisan position on this, 
because this is war. We have men and women at risk every day in 
Iraq, Afghanistan, and other parts of the world. We need a 
strategy, not only for them, but for these--this humanitarian 
crisis.
    Mr. Bowers, God bless you for what you guys are doing.
    With limited time, I want to focus on the cause of that. I 
hope, another day, we will have another chance to come back and 
deal with the possible solutions to this crisis, because it is 
out of control.
    But, I agree, Mr. Katulis, this is a pivotal moment. I am 
just a business guy, but if you look at what our history has 
had over the last 50 years, we are in a more dangerous period 
right than anytime in my lifetime, in my estimate. Rise of 
traditional rivals, Russia and China. I was with Admiral 
Harris, just a couple of weeks ago, where he informed us that 
we are now at military parity in the Pacific region, the United 
States and China. That is a very dangerous place to be. In the 
Middle East, General Campbell, in Afghanistan, will tell us 
that, ``Hey, this is about developing a long-term strategy in 
that area,'' and yet we still do not have one. I have never 
seen a more confused battlespace than Syria. In southern Syria, 
four people--four groups are battling right now. And in any 
given week in any given village, any combination of those four 
could be fighting against the other combination of those four.
    So, given that, I want to talk about--and, by the way, in 
the backdrop of an environment where we are now told that even 
the data upon which we are all basing our decisions, including 
the administration, may be in doubt. We have 50 analysts, just 
this week or last week, complain. We have two analysts now 
filed a letter or sent a letter to the Department of Defense 
saying their reports are being doctored, as it goes upstream, 
to support the administration's strategy. And then we hear that 
Foreign Minister Lavrov, in Russia, has basically, said, ``Let 
us make sure that we do not--that the United States understands 
that there will be unintended consequences if our militaries do 
not cooperate.'' Cooperate? In Syria? Really? And yet, at the 
time when we are engaging Russia in a dialogue, Senator 
Ashcroft, Secretary of Defense, is not even in the meeting. So, 
I am not very concerned about our strategy there.
    I have a question. Given the fact that we are now facing 
with--it looks like this Iran nuclear deal is going to be put 
in effect tomorrow, I guess. And given the fact that Russia now 
is on the ground with troops and military equipment inside 
Syria--let us start with you, Dr. Kagan--I would like you and 
Mr. Katulis to address, though--How do those two developments--
we have talked around it today, but specifically--How should 
that frame--and how does it complicate it--and how should that 
frame our thinking about advising and consenting on helping the 
administration develop a strategy for that part of the world to 
avoid the future catastrophes of human--at a human scale that 
we see today?
    Dr. Kagan. The United States would benefit from having a 
strategy that is as consistent as the strategy that the 
Iranians are pursuing and that the Russians are pursuing. I 
think we are, in fact, over-compartmentalizing what we see 
transpiring in the world around us, and we have a tendency to 
want to fight ISIS, but not--not take on a counter-Assad fight, 
when, in fact, that is what the majority of Syrians are 
fighting for. We have a tendency to think that what is 
happening in Ukraine stays in Ukraine and that what happens 
inside of Iraq is one part of the theater that can be 
segregated from what happens inside of Syria, when, in fact, we 
have enemies such as the Islamic State shifting resources from 
one to the other, and when we have a set of catastrophic 
failures in the governments of two neighboring countries.
    So, my strongest recommendation is that we recognize that 
our interests in Iraq and Syria are real, that they extend 
beyond the fight against the Islamic State, that that ought to 
have consequences for our policy and ought to allow us to 
broaden the range of what we provide on the military or 
diplomatic side, or economic side, in order to stabilize two 
crises that are really spilling over, not only into the region, 
but into the world.
    Mr. Katulis. Mr. Senator, I think this broader strategic 
perspective is very important to raise. And I think--it is my 
view that U.S. strategy in the Middle East has been AWL--AWOL 
for more than a decade, I would argue, that if you--and I put 
this in the written testimony, but if you look at what the 
conception was in the post-cold-war period, particularly in the 
gulf, it was this notion of dual containment. We were going to 
contain both Iran and Iraq. And I would submit that that 
largely succeeded, you know. And one strategic consequence of 
the 2003 Iraq war and its aftermath was this upending of the 
regional order, that we helped, inadvertently, to facilitate 
the rise of Iranian power in the region, and its connections to 
various proxies.
    Senator Perdue. Could I interrupt. I am sorry.
    Mr. Katulis. Sure.
    Senator Perdue. Specifically on that, could you address the 
Sunni-Shia balance and the fact that today it looks like those 
lines are being drawn in a way that we have not seen before? I 
mean, they have always been there, but, I mean, right now, if 
you look at what Saudi and Iran are doing, you see two pivotal 
points being placed there. And what happened in Yemen earlier 
this year. It affects what you are saying. Could you address 
that, as well?
    Mr. Katulis. Right. I mean, it is--the truth of the matter 
is, that is true, as an analytical framework and as a dynamic, 
but it is very complex. That was happening, I would submit, 
even while the United States had 170,000 troops in the center 
of Iraq. A lot of the massive displacements and sectarian 
cleansing that happened in Baghdad, even at the height or right 
before we did the surge in 2007--a lot of that, I think, was--I 
would not say it was inevitable, but it was sort of a 
rebalancing. And it is an ugly process that is happening quite 
clearly throughout Syria.
    But, back to the broader point is that I think--and I am 
not blaming either administration; I just think the United 
States, essentially since 2004 or 2005, has been in the Middle 
East in a largely reactive tactical crisis-management mode. We 
are not driving events.
    The exception to it--again, and I--I am in a--I am in favor 
of the Iran nuclear deal, but I think we need to be clear-eyed 
about its role in the region. And I agree with a lot of the 
comments that were made here. And one of the main points I was 
trying to stress in my opening statement and in my written 
statement is what I do not see at this point, post-Iran deal, 
if it sustains itself, is an integrated approach that looks at 
all of the tools that the United States already has in play in 
the anti-ISIL coalition, the patchwork of different bilateral 
cooperation efforts we have with partners in the region, and 
how does that sync up with what is now being proposed, in 
addition to all of that, in light of the Iran deal, as 
reassurance to our allies? It would be great to get a clearer 
presentation of that, because--and I think that opens the 
pathway, potentially, to what--a strategy for U.S. engagement 
here, one that recognizes that there are actors in the region, 
many of which have nefarious purposes, some of whom are 
actually our partners, but then work with different forces that 
are contributing to the fragmentation of Syria or Yemen.
    So, trying to figure out a new strategic framework of, How 
do we actually get to a broader goal of sustainable security in 
the broader Middle East? I think it is the bigger picture in 
which these different theaters--Iraq, Syria--I would add Libya, 
Yemen to that--we do not have that overarching picture right 
now. And I think it is in part--with all due respect to the 
Obama administration, it is leaned to disinclination and 
caution in reaction to what were viewed as, I think, dangerous 
mistakes of omission--of commission in the previous decade.
    Senator Perdue. To add to that, if I may, the Pashtun and 
the other people that are not--you know, that are without 
countries--you know, so the Kurds, the Pashtuns--I mean, that 
is a dimension we have not even gotten to yet, in terms of 
complicating this sectarian issue in the region.
    Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you.
    I just want to say, I thought your answer there was superb. 
And I think what you are saying is--I think the folks on this 
committee that have been most involved in these kinds of issues 
understand that there is a vacuum, relative to a larger Middle 
East policy, and I--without being pejorative, I think it is 
unlikely to come. And so--I mean, I think that is what our 
effort is over the next 5 or 6 weeks. And I know that I, in 
particular, and others, have been very hard on the 
administration, relative to Syria. Both sides of the aisle 
actually have. But, I think it is fair also to understand the 
balance-of-power issue that took place with our efforts in 
Iraq, and how that boosted Iran. There is no question. It is 
hard to deny that. So, I think it is fair for us to set the 
context in an appropriate way, and I hope somehow we will be 
able to push--you know, it still takes the administration--
under article 2 of the Constitution, they still have supreme 
powers on these types of issues, but I think that is what this 
effort is about.
    So, thank you. An outstanding answer.
    Senator Murphy.
    Mr. Bowers. Mr. Chairman, may I add a quick comment before 
you continue? I just want to provide a little bit of a 
counternarrative, as well, just real quickly.
    Obviously, these are large geopolitical issues and large 
forces, as you said, both formal actors and nonformal actors. 
However, just 3 days ago, I sat down with four different 
refugee families in this Greek Island, two of them from al-
Latakia, two of them were from al-Raqqa. Two of them were pro-
Assad, two of them were anti-Assad. They are all in the same 
boat, literally and figuratively, at this point. So, the 
elements for all these very difficult political solutions we 
have been talking about, though sound intractable now--on the 
ground, for average Syrians, they are the reality of what they 
need to see right now. So, even Sunni-Shia connections can be 
made, at this point, even if the political action seems 
impossible to do. I began my career, 20 years ago, in the 
disintegration of Yugoslavia, and, at the same point, we said 
the same things, that we were not going to bring peace to that.
    So, I just think we need to make sure we add a little bit 
of that urgency around what we can and should do, besides the 
very difficult players we are dealing with.
    Senator Murphy. Thank you, Mr. Chairman.
    No, I agree, I think the consensus here is that there is a 
vacuum. And I think, to the extent that there is division, it 
is over the question of whether there is a scenario in which an 
American-led plan can fill it. Whether we ultimately hold the 
cards necessary to try to fix the problems inside Syria. And, 
as much as we all talk about the fact that we learned all these 
lessons from Iraq, I sort of still feel like there is this 
leftover hubris in which we think that we are the most 
important player in the region. And the fact that things are 
really bad on the ground is just due to the American strategy 
failing. And so, I think this is a really important debate, but 
I also want to make sure that we set our expectations at the 
right place as to what we can do and what we cannot do.
    And the reason why I may be reluctant to commit more 
military assets to the region is because I think that there is 
a potentially really significantly high cost to the United 
States compared to what I would suggest is a potentially really 
low positive reward.
    So, I may want to play that out a little bit. I just came 
back from the region. I was there for the last week of our 
recess. And I saw something really disturbing play out in 
Baghdad while I was there. And, Mr. Katulis, I think you have 
talked about some of the positive things that have come out of 
Baghdad, in terms of political reconciliation, but I did not 
see it while I was there. We are a year and a half into this 
crisis, and the Iraqi military is still 94 percent Shia. This 
so-called Sunni National Guard that we hear about every single 
time that somebody comes and testifies in front of us still has 
not materialized. And during the 2 days in which I was there 
with Senator Peters, Abadi told us to his face that he was 
going to shelve the national guard initiative because of a 
personal political slight that had happened to him the day 
before from the Sunni Speaker of the House, which suggests how 
sort of fragile things are there. And you get the sense that, 
with 3,000 more Americans there, and calls for potentially a 
few thousand more, that Abadi and his elites that are just 
sitting inside the Green Zone, protected from the realities in 
other parts of the country, are kind of content to just live in 
this political morass of backbiting and infighting, knowing 
that the Americans are still basically giving them a guarantee 
that we will do what is necessary to stop these bad guys from 
marching on Baghdad.
    Now, I have supported the troops that are there, and I have 
supported the airstrikes, but having just come back, I still am 
not clear whether we are pressing the right levers internally 
to get the kind of political reconciliation necessary so that, 
when the Iraqi army does eventually march back into Ramadi or 
to Mosul, that there is somebody other than the Shiite-
dominated militias or Iraqi Army to control territory so that 
we do not just spiral into the same place again.
    And so, I want to hear from all of you, but particularly 
from Mr. Katulis and Dr. Kagan, as to how we continue to push 
the--let us start with the Iraqis--on political reconciliation, 
because I feel the same cycle playing out again in which the 
crutch of the American military and the crutch of our implicit 
guarantee is just sort of lulling them into a sense of 
political complacency that is dangerous.
    Mr. Katulis. Senator Murphy, I agree with much of what you 
said. And when I talked about positive things in Iraq, I was 
mostly talking about the first stage of the anti-ISIL 
coalition, where the United States actually used its leverage 
to create incentives for the Iraqi leadership to move from 
Prime Minister Maliki to Prime Minister Abadi. And I think 
Prime Minister Abadi, based on my research trips to the region 
and discussions with different leaders over the last year, has 
a different style and approach about him that is a little bit 
more inclusive. Whether it is effective, whether it could 
actually create fundamental change, is the big question.
    And you asked about whether there are levers, secret levers 
that we have not tried in the last 10 years, and that begs the 
question, really, of, What is Iraq, and how does it identify 
itself? How does it define its identity? I think, ultimately--
and this is what I was trying to emphasize--is that this notion 
of decentralization, which Prime Minister Abadi has been 
discussing, been discussed for a long period of time--of 
decentralizing authority from the center, is a delicate 
process, but I think it is an important part of the process of 
creating what I see as a fundamental challenge inside of Iraq 
and throughout many places in the Middle East, the issue of 
political legitimacy.
    All of these tools are impressive tools. The billions of 
dollars we spent on security assistance, were all eroded 
because we did not create strategies either in the surge in 
2007 or other things that helped stitch these things together. 
And, in my view, it was not the withdrawal of U.S. troops in 
2011 that was the real challenge there, it was the relative 
downgrading of the diplomatic importance of Iraq, the 
engagement with the different centers of power. And the fact 
that people like our Ambassador out there now, or Brett McGurk 
and others in the administration, have been very active in the 
last year or so. It actually has produced small results. I do 
not know--the honest answer is, I do not know whether the whole 
piece of Iraq will hang together. That is a decision Iraqis 
themselves have to make. And you talk to the Kurdistan regional 
government leadership at different moments, and there are some 
serious questions there.
    So, the main point is, I share a lot of your concerns, 
right? And I am not certain, you know, at 1 year into this, 
that we should give up on Iraq at any point. I do not think 
that is what you are suggesting, but I do not think there is a 
silver bullet, besides this continued sort of steady diplomatic 
engagement, which was, I think, lacking from the United States 
from 2011 to 2014, and was, I think, the key factor that 
contributed to the mess that we have now.
    Senator Murphy. Walking----
    Dr. Kagan. But----
    Senator Murphy. Walking away is not my prescription. I just 
think our metrics here have been a little screwed up and that 
we are not watching carefully enough the lack of political 
progress that will guarantee the very temporary nature of any 
military victories we are able to get.
    Dr. Kagan, sorry.
    Dr. Kagan. Yes. I agree with you, Senator. The--there are 
two fundamental challenges to reconciliation in Iraq today, 
other than the fact that, of course, ISIS occupies major cities 
inside of Iraq. The first is that the Iranians hold--the Iraqi 
state does not have a monopoly on the use of force in its own 
country. On the contrary, the Iranians, who, on the 14th of 
June, just 4 days after Mosul fell, began to send forces and 
transfer Shia militias into Iraq to assure the safety of the 
shrined cities and stop the advance of ISIS. The Iranian-backed 
militias are, in fact, the most power independent actor inside 
of Iraq, and they pose a threat to Prime Minister Hadi--Haider 
al-Abadi, not just a threat to the Sunni population. In fact, 
we have seen, over the past few weeks, leaders of militias, 
such as Qaes Qazali, who was responsible for the kidnapping of 
five U.S. soldiers in Iraq in 2007, paying a call on the 
President of Iraq in order, presumably, to pay him good wishes 
or possibly to threaten the use of force. Likewise, we have 
seen Mohandis, designated terrorist, leader of a designated 
terrorist organization, pay a call on the Supreme Court Judge 
who holds the fate of Abadi's reforms in his hands. We must not 
be naive. The Iranians are threatening Abadi, and he does not 
have maneuver room.
    The second problem that we have, though, is Sunni 
politicians who do not represent the people that they are 
supposed to represent. And, in fact, the communities that they 
are supposed to represent do not exist any longer. We have 3 
million internally displaced persons who are strewn through 
Iraq. And it is not that they are without leaders or without 
leadership. It is just that the political leaders are not the 
ones who lead them.
    And so, the kinds of reform that we need to advocate and 
undertake, we need to be very savvy and very smart that it is 
going to take a long time and a fair bit of effort to fix the 
morass of problems in the Sunni community that make Sunni 
people feel unrepresented, but also to neutralize the Iranian 
influence that makes the Prime Minister unable, really, to 
wield the Iraqi Security Force that we want to train and 
assist.
    Thank you.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    And my only point in all of this is that I think--I agree 
with everything you have said, and I just want to make sure 
that we have a sober understanding of, amongst those problems, 
which ones we an solve and which ones we cannot, and, when we 
assess blame for the failure of our strategy, that we allocate 
it appropriately and do not lump all of it on a failure of 
Washington to coordinate amongst a variety of groups that are 
all not stepping up to the plate in a variety of ways.
    Thank you, Mr. Chairman.
    The Chairman. And I am sure you will ensure that we 
continue to think about that. Thank you so much.
    I want to say to Mr. Katulis's answer to you, I think what 
happened in 2011--I am certain this is true, because of the 
many trips made there--that what happened when the troops did 
leave is, there was a check-the-box mentality on the diplomacy 
piece. I do think--and that shuttle diplomacy, which was us, 
let us face it, playing a huge role in keeping the country 
together, dissipated, and, without the troops there, candidly, 
a little of the oomph, if you will, that went with that 
dissipated, too. But, I agree, we have been much more active, 
and it has borne some fruit, and I thank you for your answer.
    Senator Flake.
    Senator Flake. Thank you.
    Well aware of the limitations of what Washington can do to 
coordinate and whatnot. What--the things that we can do, I 
think we should do.
    And, Mr. Katulis, in your testimony, you talked about the 
lack of an AUMF that specifically authorizes this engagement we 
have with ISIS as being a problem. What--in what way would it 
help, in terms of our allies, in terms of what our enemies see, 
in terms of what--the troops that are coordinating the air 
attacks there? How would it help?
    Mr. Katulis. I want to stipulate I am not a lawyer, and I 
am a security expert. And what I was--the argument I was trying 
to articulate was the need to elevate the anti-ISIS campaign in 
our own national dialogue, in our own national consensus. And I 
see the inability of the administration and different Members 
of Congress to come together on this as a sign of how this is 
seen as somewhat of a lower priority. It is--I know it is a 
complex issue. And some of my friends who are lawyers tell me 
sort of the complexity of that. I actually think having that 
debate and dialogue about the duration of an authorization, the 
scope of it, the--you know, and there was attempts to have 
this, I think, last fall, which I think were warranted. There 
was great leadership by some members up here to try to tee this 
up.
    So, your question, I take more as, How would this help us 
operationally, and how would it make a difference on the 
ground? I do not think it would change much, fundamentally. I 
mean, it may perhaps open up some pathways to new tactics in 
Syria that would lead us to a more cohesive Syrian strategy, 
because I sense that some of the things that we are not doing 
in Syria may be related to how lawyers may read authorization. 
The wide berth that we give and have in Iraq is not reflected 
in our policy in Syria.
    But, mostly I was making the case for--we are at war. We 
have thousands of people back in Iraq. We can say that they are 
noncombat roles. And that is true. But, given the situation in 
Iraq, I think it is deeply unfair, as a society, to expect so 
much from--and we did this for a decade after 9/11--and to do 
that again, a year into the campaign against ISIS, when it was 
struck again, I think--I was mostly arguing it as a means to 
create a dialogue in this country to bring the country together 
that is been divided about all sorts of things.
    Senator Flake. Yes. I agree, certainly, with that. It would 
also seem that one of the biggest problems we have is the 
inability or unwillingness of our allies in the region to step 
up to the plate. And as long as they are unaware or confused 
about our role and the limitations of our involvement, then 
they have a crutch to fall back on. That would be one 
advantage, I would think, of spelling out what our--where our 
authority starts and ends there, to encourage them to fulfill 
their role, which they certainly have not, so far.
    But, moving on to the JCPOA, it was discussed briefly here 
about the impact of the Iran agreement on regional security 
there. In one way, you could certainly say, ``Well, we are 
cooperating with Iran in--on the nuclear front. That might lead 
to greater cooperation on the nonnuclear front.'' But, you 
could also view it, I would think--and what worried me about 
this agreement is the restrictions it seems to place on 
Congress, in terms of our ability to respond to Iran's non-
nuclear behavior in the region that is detrimental. That is not 
the only detrimental behavior. They are not the only bad actor 
in certain areas. But, it--in what way do you see that playing 
out, in terms of our--the JCPOA and our ability to check or 
deter or to punish Iran for its malicious behavior in the 
region?
    Mr. Katulis. I think it really depends on the posture that 
the administration assumes, post-Iran deal, on a range of 
different fronts throughout the Middle East, vis-a-vis Iran. 
And it--you know, I mentioned Secretary Kerry's speech earlier 
this month and the proposals for enhanced security cooperation. 
And actually, I think these are quite warranted if it is placed 
in the context of a broader strategy that is not simply about 
reacting to the Iran threat or the ISIS threat, but is framed 
in the sense of what is it we are actually seeking to create 
and to achieve in the long run. That is really what is been 
lacking when we talk about this strategic perspective.
    I think, you know, we--I think it is right to focus on 
Iran's malign behavior. I agree with much of what Dr. Kagan 
said. But, I would also submit--and I said this in the written 
testimony--that some of our closest partners on the other side 
who fear Iran also do things in other theaters in the Middle 
East that do not enhance stability and, in fact, actually 
accelerate this fragmentation. We have lost not only sort of a 
sense of stability in Iraq and Syria, but Libya, now Yemen. And 
I fear for those closest partners of ours, like Jordan and 
others, that--we need to actually deal with all of the 
destabilizing behaviors by actors in the region--state actors--
to work with proxies that are ultimately undermining the state 
system in the Middle East.
    Senator Flake. Well, I hope we can move forward now. And 
the next step we have talked about is looking at a regional 
security framework moving ahead in light of the Iran agreement. 
I hope it is the case that greater cooperation on the nuclear 
front will lead to other cooperation elsewhere. I do fear what 
we have seen so far is a reluctance to challenge Iran's 
interpretation of the agreement thus far. And if we are 
reluctant thus far, I can see that later on--I worry that we 
will be even more reluctant to challenge their behavior--
nonnuclear behavior, for fear that it will give them pretext to 
forego their obligations on the nuclear side. That is a concern 
that I have, and hopefully--and that, I think, points up the 
importance, again, of us coming together, Congress and the 
administration, on a bipartisan basis to put together a--you 
know, a strategic security framework for the region.
    Thank you for your testimony.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all for being here this afternoon.
    I would just like to, apropos Senator Flake's comments, 
point out that there is legislation in both the House and 
Senate to further sanction Hezbollah, and that that would be 
something that we could do very quickly that would send a very 
strong message. And I certainly hope we will take that 
opportunity.
    So, let me--Mr. Bowers, I want to go to you first, because 
I had, along with Senator Kaine, the benefit of sitting through 
a hearing in the Armed Services Committee this morning on 
exactly this topic. And one of the issues that was raised was 
the potential to set up a safe haven in Syria that might help 
with the refugee crisis. And I just wondered, from the 
perspective of your agency, whether you think that would be 
beneficial, or not, because one of the challenges that is 
presented by that is that we could then have a permanent very 
large refugee camp in Syria that could be subject to ISIS 
attack and others. So, do you have a view on that?
    Mr. Bowers. Thank you, Senator. Yes, we do, with abundance 
of caution and, I think, much more analysis on the pros and 
cons of what a so-called safe haven would do.
    First and foremost, our concerns are that it is--there is a 
adverse reaction, in that refugees would no longer be able to 
seek asylum in neighboring countries, that essentially those 
host countries would find a reason, an excuse, if you will, to 
no longer keep their doors open, which they are required to 
under international law. So, we are concerned about asylum-
seeking issues.
    Secondly, safe havens, unless they are cleared of all 
combatant actors, nonstate or otherwise, they would be a 
magnet, possibly, for attack of civilians in that zone. 
Presumably, anything that is done in a nonconsent way would 
need some sort of military backup behind it. I cannot imagine, 
in--I have been into northern Syria. It is ruled by arms there, 
of course. There is no ambient security, otherwise. So, even if 
we called it a ``safe haven'' and somehow you cleared out a 
aerial zone around that, we would likely find more violence and 
more harm than we would gain.
    So, if it is something that is moving along a trajectory 
with regional governments there and of our own, I would urge us 
to think through the consequences, both pro and con, both at 
State, at Department of Defense, USAID, and implementers like 
Mercy Corps. We have not seen safe havens really work, quite 
frankly, in many other conflict zones around the world, so they 
are very difficult.
    Senator Shaheen. Thank you very much. That is very helpful, 
to hear your perspective.
    I want to go, next, to both your testimony, Dr. Kagan, and 
yours, Mr. Katulis, because--I virtually agreed with everything 
that both of you said about the current situation, and I think 
our efforts in Syria have been a tragic failure. But, what I 
have not--what I cannot quite understand from what you were 
saying is what your strategy is for changing what we are doing, 
because--I mean, Dr. Kagan, just for example, you say, in your 
testimony, ``Rather, defeating ISIS requires using military 
force, diplomacy, and all the instruments of U.S. national 
power to break the organization's capability to fight.'' I 
think many people looking at what the United States has tried 
to do on ISIS would suggest that we have done a number of those 
things, and are continuing to do that.
    So, I am still trying to figure out exactly what you all 
are proposing that we do differently. Because I agree, we need 
to do something differently. I think we need to reassess our 
whole strategy across the Middle East. What I am still trying 
to understand is what exactly that strategy is going to include 
that is going to help us, with the international community, get 
to a better place.
    So, I do not know which one of you wants to go first.
    Mr. Katulis. And, Senator Shaheen, I would take your 
question focused mostly on the Syria component, correct?
    Senator Shaheen. Well----
    Mr. Katulis. I just want to be clear. Because you----
    Senator Shaheen. I think it is----
    Mr. Katulis [continuing]. You leaded with that and then 
broaded it out.
    Senator Shaheen. I did. I did.
    Mr. Katulis. Yes. I----
    Senator Shaheen. So, I think it is really both.
    Mr. Katulis. Okay.
    Senator Shaheen. I mean, Syria, obviously, is the most 
intractable, because there is no governance structure there, 
really, beyond Assad, that allows us to build on something. And 
Iraq, you have talked quite well about what is there and some 
of the challenges. But, since they are both part of the same 
crisis that we are experiencing, maybe you could speak to both 
of them.
    Mr. Katulis. Yes. Well, briefly on Syria, what I would 
propose is a lot of the things the administration has said they 
would do but has not done yet. Toward the end of creating some 
sense of greater stability of battle lines, if there is a 
moment here--and I do not know that--the way I analyze the 
conflict in Syria--and I think Dr. Kagan's Institute has great 
maps of what is happening there. It is frightening. But, it is 
heavily fragmented. You know, this notion of ISIS versus Assad 
versus opposition forces, when you dip beneath that, it is 
actually a militiatization of the society, and there are 
different pockets. I mean, ISIS is a dominant actor.
    But, you know, the first thing I would do is press the 
administration that, if we are serious about building a third-
way alternative force that is aimed at pushing back against 
ISIS and perhaps creating the space for the long-term political 
settlement, then where is that plan? We all agree, I think, 
here today, no one sees that. Greater stability----
    Senator Shaheen. Well, let me----
    Mr. Katulis. Yes, sorry.
    Senator Shaheen [continuing]. Let me just see if I can 
better understand what you are saying. So, are you suggesting 
that, rather than taking the approach that says we are only 
going to support those Syrian militias that are fighting ISIS 
and not fighting Assad, because we do not want to get in the 
middle of the Assad issue, that we ought to be saying, we are 
going to all be on the same side to fight ISIS and worry about 
Assad later?
    Mr. Katulis. I think that is what the administration is 
trying to say right now, and it may be a reason why the numbers 
are so low, in terms of who they were able to vet and recruit. 
And I did not hear the hearing this morning that you were a 
part of. But, what I am saying is that, if we are going to try 
to at least say--and we have vocalized this for the last year 
or so--that this, in part, will not only aim to defeat ISIS, 
but then also perhaps set the stage for a negotiated political 
solution, we need to do a better job on building those forces. 
And then these complicated questions of if those forces are 
then capable, and then reinsert it into the battlefield, the 
complicated questions of what the United States can and cannot 
do to protect those forces from barrel-bombing, for instance, 
by the Assad regime, that is where I think the discussion about 
an AUMF and authorities actually really is terribly relevant 
for the situation on the ground.
    But, more or less what I am trying to say is that we need--
we either need to sort of go bigger--and I think we disagree on 
how far, you know, the use of force should be used in Syria. 
Dr. Kagan and I might disagree on that, because I think there 
is this potential that if we just do airstrikes against the 
Assad regime and things like this, it could lead to this 
further fragmentation in the country. We do, I think, have an 
interest in seeing some of the security institutions of Syria 
maintain their coherence. But, right now we are so far afield 
from putting together the different pieces of what our stated 
tactics are into this stated end goal of a political solution.
    Really briefly, I--we went out longer--I think the broader 
concept I have talked about for the regional strategy in the 
Middle East needs to pragmatically recognize that there are 
many of our partners, including the United Arab Emirates, 
Jordan, others, that are actually throwing their weight around 
in ways, and exercising their self-interests as they see fit. A 
lot of the discussions that President Obama had, like the GCC 
Summit, I think are very good to do. The issue, then, is, What 
is our implementation in all of this? How do these different 
pieces of an anti-ISIS coalition, which many of these countries 
are part of, and the reassurance on the Iran nuclear deal--
post-Iran nuclear deal--how is this blended together, not in 
reaction to just the Iranian threat, which is real, or the ISIS 
threat, which is real, but driving towards a positive end state 
and realistically saying--certainly it is going to outlast this 
administration, but, where do we want to be in 2020? Where do 
we want to be in 2025? That tactical reactive mode, the crisis 
management, we will be stuck in that unless we have a glimmer 
of what that vision looks like. And I think that vision needs 
to be crafted with partners in the region. We cannot do it 
ourselves at this point.
    Senator Shaheen. I am actually out of time, but hopefully I 
can get your response, Dr. Kagan, on a second round.
    Thank you.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Again, I am just going to call for a little bit of 
humility. We wanted to remove Qaddafi from Libya. We wanted to 
remove Mubarak from Egypt. We wanted to remove Saddam Hussein 
from Iraq. And we want to remove Assad from Syria. Not working 
out so great, so far. So, going forward, just a little bit of 
humility, I think will help all of us, in terms of 
understanding the law of unintended consequences that we invoke 
every time we move into a situation. It might be idealistic, it 
might be towards the goal of introducing Jeffersonian 
democracy. That is all fine and dandy. But, I think the system 
in the Middle East has rejected the--that approach thus far.
    I want to move, if I could, Mr. Bowers--and, by the way, 
thank you for the incredible work that your organization does. 
It is my understanding that Russia really is not accepting 
refugees from Syria at this time in any numbers that is 
significant. Is that correct?
    Mr. Bowers. I do not have that factual information. I do 
know that migrants are transiting through Russia at this point 
to get into the EU. So, I think there is some tacit 
acknowledgment of flows. I think there are different strategies 
the Russian Government are using to support humanitarian aid 
there which is not part of our formal system.
    Senator Markey. Yes. But, is there is any knowledge that 
you have that there are substantial numbers of refugees that 
are staying in Russia and are being cared for by the Russian 
Government?
    Mr. Bowers. No, the information I have seen usually has to 
do with their so-called cultural exchange programs, educational 
programs. Many Syrians will seek application to universities 
there. Whether or not they are staying there to become students 
or transiting----
    Senator Markey. Yes.
    Mr. Bowers [continuing]. Through, we do not know.
    Senator Markey. And I kind of think that is interesting, 
because the United States and Russia each have objectives in 
Syria. And right now, neither country is actually taking any 
substantial number of refugees from that country at all, as we 
look on. And I think--first of all, I think the United States 
should take a lot more refugees. You know, we broke a lot of 
the china over there, and we have a moral responsibility to 
take a lot of the people who are collateral damage. There was 
no ISIS in Iraq until we started. And so, all of this flows out 
of decisions that we made, maybe well intentioned by some 
people, but did not work out. And the same thing is true for 
Russia. Russia wants to prop up Assad, Assad kills a lot of 
people, and refugees have to go someplace, but, so far, they 
are not staying there.
    I think one of the ways that we can actually help this 
effort is to kind of put pressure on Russia to keep a lot more 
of these refugees in Russia. Keep them there--so that they're 
paradoxed by the consequences of proxy state politics in the 
same way that we should have to take a lot more, so we are 
living with the consequences of our role over there, and it 
presses us more fully find a political resolution of the issue. 
And ultimately, we can only do it through a partnership with 
Russia. Cannot do it without them. We need them at the table.
    Could you comment upon that, Mr. Bowers?
    Mr. Bowers. Well, I would amend your call to action, 
Senator, to say I would agree entirely the United States can 
and should do more to resettle refugees in this country. There 
is no doubt the apparatus is here. There is no doubt the 
generosity of the American people is calling for that. So, I 
would definitely urge this Congress to work with the 
administration to make that happen. I know they will come back 
with ``There are administrative issues, there are security 
issues, and there are financial issues.'' But, to say, at this 
point in the history of our Nation, that we cannot take in more 
than 10,000 refugees out of a nation of 300-million-plus is 
ridiculous.
    Senator Markey. I am agreeing with you----
    Mr. Bowers. So, I entirely----
    Senator Markey [continuing]. 100 percent. So----
    Mr. Bowers [continuing]. Agree with you.
    In terms of partnership with Russia for a resettlement 
program, I would think that would raise more problems than it 
would net. That does not mean that the United States cannot 
take a leadership role, along with the European Union, along 
with Canada, Australia, New Zealand, to shame and name the 
world community to do more. Essentially, at this point, Syrians 
are needing durable resettlement solutions. If we are not in 
agreement of how to get to a political resolution here, we need 
to get to agreement on how to help them.
    Senator Markey. And I agree with you 100 percent. I mean, 
in my old congressional district, in my own hometown of Malden, 
where I live, we have thousands and thousands of Vietnamese 
Catholics who are now the Catholics at the church in Malden, 
the Catholic church, because we backed the Catholics against 
the Buddhists in Vietnam. So, America had to absorb those 
refugees in America. And we did. We had to. We had made a 
decision, you know, to intervene, and there were people who 
were collateral damage, their families. And we have the same 
responsibility in Syria, in Iraq. We got in, and we have to 
now, for the rest of this century, live with the consequences 
of that, in terms of incorporating many, many more of them into 
our own society.
    There seems to be an aversion, at a certain level, to 
dealing with the realpolitik of Putin having a military base 
right on the Mediterranean. And I heard Ms. Kagan talk earlier 
about al-Nusra moving in that direction. So, I do not think it 
is a surprise why the Russians all of a sudden are moving in 
more military aid in that area. You know, they are not going to 
allow their military to, you know, suffer losses there. You 
know, and it just seems so, to me, obviously related--right?--
that they get paranoid, in terms of what the impact of al-Nusra 
can be in that region.
    And so, right now we do not want al-Nusra to win, we do not 
want Assad to win, and we do not want ISIS to win. And it does 
not leave much in the country. So, it clearly requires a step 
back in looking at all of the larger geopolitical issues that 
are on the table, including Ukraine, Crimea, you name it. And 
we have got to go to the table with Russia. We have got to have 
a larger discussion, in the same way we did during the cold war 
with Russia, because, from Nicaragua to El Salvador to country 
after country around the world, these smaller countries were 
just proxies in a larger discussion. And we did not get 
realistic about it for years and years, decades actually. But, 
ultimately, ordinary families just became pawns. Huh?
    So, I would say that it is time for us to have those kind 
of hearings. Mr. Chairman, I would recommend that we do, that 
we, maybe, bring in those Secretaries of State from the past 
who have experience in dealing with that Soviet-era level of 
confrontation that, thankfully, stayed cold, that did not get 
hot. But, there were a lot of countries to pay the price, you 
know. Americans did not die, Russians did not die, but a lot of 
other people did. That is where we are today, and I think it is 
time for us to step back and begin to put these larger pieces 
together.
    And I thank you for having the hearing, Mr. Chairman.
    The Chairman. Thank you.
    If I could just make a point before turning to Senator 
Coons, I think--first of all, I agree that we need to play an 
appropriate role, and have said so on the front end, relative 
to refugees. I think we do forget that we are the largest 
contributor of support right now in the places that they are. I 
mean, we dominate, if you will, relative to financial support.
    And, secondly, as I understand it, even if we said, today, 
10,000 people, it is not the 10,000 people we are looking at on 
the television screen, it is 10,000 people 2 years from now by 
virtue--so, I think we should be realistic about the situation 
and say that even if we raised our quotas, it is not helping 
the people we are seeing on the television screen, it is 
helping people 24 months from now, based on where we are. That 
does not mean that we should not play an important role, but--
you are shaking your head, which I assume to agree--assume to 
be a yes.
    Mr. Bowers. I agree, but it is back to the leadership and 
taking a position of--a role to accept that responsibility and 
lead with that. And even, as you said, there are many 
bureaucratic hurdles for intaking asylum-seekers that are 
referred to us from UNHCR, in particular. That does not mean we 
cannot represent that leadership role.
    The Chairman. I agree with you.
    Senator Markey. Mr. Chairman, I would just urge--I mean, I 
think we need to have some briefings on this subject, because, 
I agree with Mr. Bowers, it is U.S. leadership. Right now, 
Europe looks at--it is mainly their burden of dealing with the 
Syrian refugees. And they are having a political problem as to 
how they allocate, based upon where the person seeking asylum 
first reaches a safe country. And it is--if U.S. leadership 
showed that we were compassionate as to accepting refugees--and 
there are refugees from all over the world in which some are 
closer to the United States--the leadership requires us to be 
more aggressive than we have been in the past. But, I would 
just urge us to have an understanding, perhaps through 
briefings or hearings, because I do think the United States can 
play a greater role than just providing the resources, the 
dollars.
    The Chairman. Now, Senator Coons, if--with your permission, 
Senator Shaheen.
    Senator Shaheen. Well, I just wanted to make a 
clarification, because it is my understanding that, while the 
United States is the largest single contributor of any one 
country to the humanitarian effort in the Middle East, actually 
the EU has contributed, as an entity, more than the United 
States. And so, I think it is important to point that out.
    The Chairman. Yes, 28 countries, that is right.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin, for holding this hearing.
    Mr. Bowers, if I might just follow up on an intriguing 
point you made both in your early testimony and then the recent 
comments, and then we will turn to some of the more strategic 
questions.
    You were talking about safe havens, you were talking about 
how we can deliver humanitarian assistance and support in a way 
that is more sustainable and is more effective. In your spoken 
testimony, you talked about silos. Tony Lake is a dear friend 
and mentor of mine, going back to college, and recently made 
some remarks in his role as head of UNICEF about how, as the 
U.N. begins to look at the sustainable development goals, if 
they are to be reached, if development is to mean anything, the 
enormous number of children who are most at risk, who are 
displaced, who are refugees, who will principally be reached, 
if at all, through humanitarian relief, have to be taken into 
account in looking at our development goals. What advice would 
you have for us in how we might help break down silos, in how 
both the United States and the world community looks at the 
challenges of humanitarian relief, refugee resettlement, and 
long-term development? And what do you see as the consequences 
for Syria and Iraq of having a whole generation of children 
growing up displaced and without reliable education or 
healthcare or a sense of a stable connection to community?
    Mr. Bowers. Thank you, Senator. Yes, we are victims of our 
own success, in that, in the humanitarian development world, we 
definitely utilize the resources put forward, primarily from 
funders such as the U.S. Government. Those sources tend to be, 
of course, controlled by Congress, and the way they are 
developed and designed and then executed, especially by USAID 
and its organs, tends to compartmentalize our thinking. So, for 
instance, with the Office of Disaster Assistance, OFDA, we 
usually work on a 6-month cycle. And yet, we know that this 
protracted crisis will not--will go beyond 6 months. So, most 
of our strategies are focused on very short-term delivery 
issues.
    Now, those are critical for saving lives, but we cannot 
necessarily bridge those underlying issues as effectively as we 
would like to.
    Then we have our development friends, who are often looking 
at cycles in multiyear realms, right? And we simply do not do 
enough work to talk to each other across that channel. And 
Mercy Corps, along with many other organizations, have been in 
dialogue both with USAID and our European funders on, How do we 
break down those silos? How do we actually program in a way 
that is smart and effective, saving lives and livelihoods, but 
also looking at some underlying issues that we know we need to 
get to? Poor governance, illegitimacy with youth within that 
society, these are several things that, you know, we have to 
address, basically, concurrently with the humanitarian streams.
    One of the events occurring next year in Istanbul that is 
being hosted by Ban Ki Moon, the World Humanitarian Summit, 
will be one of those forums where I think we would like to put 
some pressure points on our donors--the United States and the 
Europeans, in particular--on how to change, in a statutory way. 
They fund implementors like Mercy Corps.
    And then, finally, I think the issues you raised, in terms 
of that no lost generation, correct? Children, a whole group of 
children are lost, now, to years of violence. That requires a 
multiyear, multisector approach. So, where Tony Lake is talking 
to you, I think he is exactly on spot, in terms of where we 
need to engage with youth, both on the humanitarian level, but 
also where they see themselves in 5, 10 years. Because, at this 
point, their hope is diminishing fast.
    So, it is a significant population for us to be concerned 
about. And, sectorily, how do we address those issues of 
countering violent extremism within those youth groups, 
offering ways that is not just short-term employment? We know 
that, beyond employment schemes, youth are looking for a 
purpose, they are looking for ownership in their society. So, 
we should not just be offering very short-term projects, we 
should be looking at solutions that bridge that.
    Senator Coons. Thank you, Michael.
    Previously, Senator Shaheen asked about safe zones and 
their humanitarian impact. I would be interested, Mr. Katulis, 
Dr. Kagan, in your comments, as well, on whether they are 
strategically, or at least tactically, advisable, sustainable. 
They have been debated a great deal as to whether a safe zone 
on the Turkish border that might be funded by some of our gulf 
allies and enforced by either coalition aircraft or the Turks 
would stabilize the region, either from a refugee perspective 
or at least from a combat and ISIS perspective. And then 
another question I would have is whether a safe zone on the 
Jordanian border makes any sense. I would be interested in your 
view of whether this idea of a no-fly zone or a safe zone makes 
any sense, from a military or strategic perspective.
    Dr. Kagan. I assess that a safe zone would have to be 
enforced and enforceable through U.S. military capabilities, 
because we, the United States, have capabilities that other 
people in the world do not have, including our reconnaissance 
capabilities, our intelligence capabilities, the quality of our 
Armed Forces, and the extraordinary precision with which we can 
deliver fires. If we, the United States, are not prepared to 
secure a safe zone and to make sure that the people inside are 
safe, then we risk having another Srebrenica, and that should 
not, in fact, be our goal.
    So, if we go toward a safe zone, we had better enforce it. 
But, a safe zone and a no-fly zone are actually two different 
things. And I cannot stress enough that the United States does 
have the capacities to end the kinds of overflights that the 
Assad regime is taking and using in order to bring barrel bombs 
and other heinous weapons on civilian targets, and that I think 
that an essential prerequisite for getting to the kinds of 
political solutions that we want is the cessation of barrel 
bombing and other uses of violence by the state against the 
civilian population. And that, in my opinion, is something that 
we ought to consider much, much, much more robustly.
    Senator Coons. Thank you.
    Mr. Katulis.
    Mr. Katulis. I will just say briefly, because the time is 
short, on the question of strategic feasibility, I would stress 
the importance of trying to--if we were to implement that, 
getting the regional buy-in and those countries. And each of 
the theaters, I think, are quite complicated. The 9 months that 
it took for the United States and Turkey to come to some sort 
of consensus--and even that consensus, it is not clear where it 
is going because of the concerns about: What are the ground 
forces then that would backfill in the northern part? Jordan, a 
place that I feel strongly about--I used to live there--
southern safe zone. The devil is in the details of the 
implementation and making sure that, in addition to what Dr. 
Kagan said, that we are willing to sort of see it through, but 
also it is a question to our partners in that venture, too.
    Senator Coons. Well, Mr. Katulis, if I might--this will 
have to be my last question. In your very opening comments, you 
said, ``What is a realistic end state?'' You asked the 
question. Perhaps I missed it. I do not recall a concise 
answer. But, in your written testimony, you talk at length 
about how the central part of a long-term strategy for 
stabilizing the region has to be some decentralized federal 
structure of government in Iraq and Syria. Just talk a little 
bit more about--and, given the complexities and difficulties of 
accomplishing that in Iraq, given how far we are from a path to 
that in Syria, just help me understand what that would look 
like and what the transition to that might look like. I am 
assuming that you do not think we could achieve that without 
the real engagement of regional partners and others--I mean, 
Russia, Iran, Turkey, the Saudis--and that some sort of federal 
structure might in some ways literally cross the borders of the 
existing states of Iraq and Syria. Help me understand exactly 
how that would work, in your view.
    Mr. Katulis. I think it is clear to understand inside of 
Iraq, and in--particularly, the central government versus the 
Kurdistan regional government----
    Senator Coons. Right.
    Mr. Katulis [continuing]. Because the contours are almost 
already there.
    Senator Coons. Right.
    Mr. Katulis. The big missing link in all of this--and we 
talked about the security threat and the military threat that 
ISIS poses, and I think it is real--but, what is missing is--I 
talked about the sense of Sunni grievance, both in Iraq and in 
Syria. It is different because of the different power dynamics 
there. You know, the Sunnis are a majority inside of Syria, 
whereas they are a minority inside of Iraq, though many of 
their leaders still do not recognize it as such if you 
interview. And we went out to Erbil and talked to people who 
were leadership in Mosul, the Sunni leaders. You know, they 
still see as a fundamental problem of U.S. policy that we are 
working with the wrong people in the central government. They 
are not willing to recognize the new reality that it--that Iraq 
has become over the last 10 or 12 years.
    So, the idea of decentralized--I want to be clear. I said 
this in the written testimony. We should not be in the business 
of us partitioning and drawing new borders. You were very 
clear. Part of the problem we are facing today is, I think, a 
consequence of other outside powers doing that.
    I think, in Iraq, it is easier to figure out: How do we 
actually have that dialogue with the different communities, and 
especially the Sunni communities? It is not easy, but figuring 
out--you know, certainly there is Kurdish autonomy, there has 
been discussion of Shia autonomy in the southern part of Iraq, 
but there has not really been a fulsome idea of if, you know, 
the--after we retake Mosul or somebody retakes Mosul and Anbar, 
what does that actually look like, in terms of decentralized 
authorities, budgeting, and other things?
    Syria, I will just admit, it is so hard to conceptualize at 
this point in a--as I was saying before, the fragmentation of 
the conflict itself. If we could get to some sort of stable 
battle lines, where the militant groups that now dominate the 
conflict in--in terms of opposition to Assad. And that is a big 
``if.'' That is a long timeframe right now. Then a lot of the 
things that I think Mr. Bowers was talking about, in terms of 
those pieces that we are doing, in terms of tactical assistance 
to different communities--all of these things that parts of the 
State Department have been working on and have not yet amounted 
to anything because of the trajectory of the conflict right 
now. But, if you could get to at least some sort of sense of 
stability in the battle lines, then you might actually be able 
to have that broader discussion of: What is a negotiated 
transition?
    The broader point is this, is that I--I think that these 
societies need to negotiate that. In Iraq, there is a little 
bit more of a framework and a pathway forward to do that. In 
Syria, I do not see the first step right now, because a lot of 
the tactics we said we were going to use to shift the 
battlefield, we just have not implemented. But, we should not--
just because that is the case and just because that failed, I 
think it would be a grave mistake to just say there is nothing 
we can do about it. I think we either need to double down on 
those efforts to create credible, reliable, third-way 
opposition forces in Syria or we need to fundamentally reassess 
what our strategic positioning is in Syria.
    I doubt--I will say on this--I am very skeptical of anyone 
who argues that the Assad regime is part of the solution to 
stability in Syria. The devastation it has caused to its own 
population has, I think, obliterated its potential legitimacy 
in a long-term sustainable solution.
    Senator Coons. Well, thank you.
    Thank you for a thoughtful answer that I think highlights 
just how difficult it is for us to chart a clear path towards a 
negotiated resolution in Syria. Like many others, I think I 
also have a concern that as we--if we are to succeed in 
shrinking the area of control of ISIS, and creating more and 
more pressure on ISIS from Iraq, it puts Lebanon and Jordan at 
greater risk. We need a regional strategy, not just a 
battlefield strategy, not just in one country or one place. And 
how we act, moving forward from the Iran deal to reinforce and 
strengthen and partner with regional allies, has to be done in 
the context of this strategy.
    To your earlier point, if they are simply fragmented and 
going past each other, it really can cause greater dislocation 
and greater confusion about our real, ultimate strategy and 
goals. And I look forward to working with the chairman and 
other members of the committee in trying to craft a coherent 
strategy through all these challenges in the months ahead.
    Thank you.
    The Chairman. Thank you.
    And, just for the members, I think most of them know this, 
but we have tentatively set up Monday, Senator Cardin and 
myself, a briefing from the administration on the refugee 
crisis, at 5:30. So, we are still negotiating over witnesses. 
But, anyway, I want you to know that, Mr. Bowers, or certainly 
the other members.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, to the witnesses, for your efforts, your 
testimony, and, to Mercy Corps, especially, for your front-line 
work. I have been to the Middle East, I guess, six times during 
my time in the Senate, and I hardly ever go without asking 
Mercy Corps to help arrange part of the itinerary. And those 
meetings are always very valuable.
    Today, I started with a Armed Services hearing about ISIL, 
and then, at lunch, we did European Ambassadors to talk about 
the migrant crisis largely by Syrian refugees. And here we are 
in the Foreign Relations.
    The morning hearing in Armed Services was a testimony to 
the growing scope of the war. The territory has expanded, so we 
are in the battlefield against ISIL in Iraq and Syria, but 
there is ISIL presidents--ISIL presence in Yemen, Libya, and 
Afghanistan that has attracted our military's attention, at a 
minimum, and there is also ISIL alliance that Boko Haram has 
claimed. They, Boko Haram, has not said they want to take 
action against the United States, but we are seeing an expanded 
territorial issue with ISIL.
    The tactical complexities are growing. The administration 
announced, in August, that they had decided, tactically, that 
trained Syrians, if they came under attack by the Assad regime, 
that part of our strategy should be to rebuff those attacks. I 
have a huge question about what is the legal justification for 
that. Although tactically I think it is a good idea, I just do 
not think there is any current legal authority for it. We have 
already engaged in tactical attacks against al-Nusra to try to 
protect Syrians that we have trained in Syria.
    General Austin, Mr. Chair, testified, this morning when he 
was asked, that the war against ISIL would--he thought would 
take many years. He did not want to put a number on that. Would 
you suggest that that is the case? I mean, is there any 
scenario that you see now that involves us not engaged in 
military action against ISIL, at least for a number of years?
    Dr. Kagan. I will answer that question, Senator. I think 
you are asking a really important question. And I think that, 
among the different lines of effort that we need to undertake, 
and among the different strategic shifts that we can make, 
expanding our timeline and recognizing that, in fact, we have a 
generational problem because of the amount of destruction that 
we have seen in Iraq and Syria and the propensity to violence 
that groups will have, and the propensity of renewed civil war 
to occur in places that have experienced civil war, we actually 
need to approach the conflict with the Islamic State in the way 
that we framed our approach to the cold war; namely, that we 
have a challenge that is going to take many administrations, 
many generations, that it is something that we should stop 
asking, ``What do we do now in order to fix the problem?'' but, 
really, ``What should we do in order to get all of our 
institutions ready to confront an idea that is hostile and 
inimical to the United States and its values, to confront 
military manifestations of that idea that will continue to pop 
up in power vacuums all over the world, and to recognize that 
we, too, need to be thinking about long-term rather than short-
term solutions.''
    Senator Kaine. Let me say this, and I am going to then 
segue to Mr. Katulis on this question. If both General Austin 
and Dr. Kagan suggest that this is a multiyear effort, I am 
struck, as I always am, by the fact that we are 14 months in 
into a war, and we have said virtually nothing about it. When 
we had an Armed Services hearing with General Dunford with 
respect to his position to be head of the Joint Chiefs, I asked 
him the question, ``What would an AUMF do, in your view?'' And 
this is almost a precise quote.
    He said, ``What our young men and women need, and it is 
virtually all that they need to do what we ask them to do, is a 
sense that what they are doing has purpose, has meaning, and 
has the support of the American people.''
    Now, let us just focus on that point, our troops, which 
in--it is important to all of us, and it is really important in 
Virginia. Do the troops, the thousands that are fighting 
against ISIL now, understand the purpose of what they are 
doing? Do they understand the meaning of what we are doing? Do 
they think that what they are doing has the support of the 
American people? This is a rhetorical question. I think the 
answer to that is no, because we have not even debated it. We 
have not even really weighed in on it. I mean, for----
    Congress is approaching this as if we are fans at a game 
opining about what play should be called by the coach. But, we 
are not fans. We are the owners of the team. I mean, we are 
like editorial writers, opining every time we hear witnesses. 
We will offer thoughts about it. We bash the administration 
witnesses around the day. We are just, you know, freelancing 
various opinions and things like that. But, in terms of whether 
the troops know that what they do has purpose, has meaning, and 
has the support of the American people, we have not given them 
that. We have not given that to the adversary, who has not--we 
have not given that to the allies. And we have not subjected 
the administration to the kind of penetrating cross-X in 
questioning and force them to get better and better and better 
at defining a strategy so that we can do that kind of long-term 
strategizing that Dr. Kagan mentioned.
    And so, I just--you know, I--I am tired of hearing myself 
say it. I am not impressing anybody with saying it. But, we are 
14 months into a war, and I do think--and, Mr. Katulis, this 
was in your testimony--I think we would benefit our troops, we 
would benefit our own thinking and crystallize a strategic, 
rather than a reactive, vision if we would really dive into it.
    The issue of Sunni grievance, really quick, just to kind of 
offer an insight. I was in Iraq, and--right on the Syrian 
border, in Gaziantep, in July . And, boy, the Sunni grievance 
narrative is very strong, and I had not really thought about 
it. Let me summarize it just for, like, 30 seconds.
    Sunni grievance in Iraq: ``Boy, for a while, you really 
worked with us really closely, but then you left in 2011, and 
you left us at the mercy of a Shia-dominated country. And now 
you have come back in, and you are not really doing a ton in 
the Sunni area. You are trying to shore up this central 
government, which is Shia-dominated. And we are getting kicked 
around by the central government, and then ISIL started to run 
rampant in the Sunni zone, and you did not do anything. But, as 
soon as the Kurds were in trouble, you got in and started 
bombing to save the Kurds.'' That is what I heard in Iraq.
    Then I was in, talking to Syrians in Gaziantep. ``You said 
Assad must go. That made us hopeful. Us, Sunnis. But, you did 
not then pull the trigger on that step, and we are getting just 
run roughshod over by an Alawite minority that is being backed 
up by Russia and Iran. And we are fleeing our country, we are 
getting slaughtered, by the, you know, tens and hundreds of 
thousands. But, as soon as the Kurds got in trouble in northern 
Syria, you engaged in a bombing--you did not engage in the 
bombing campaign after the chemical weapons, but you did engage 
in a bombing campaign in Syria to work with the Kurds.''
    And I am glad about this, because the Kurds are good 
partners. So, I am--do not get me wrong. I am not saying we 
should not have. But, the Sunni in both countries are looking 
at us as folks who will not really come strongly to their 
against ISIL, and will not come strongly to their aid against a 
Shia-dominated central government in Baghdad, and will not come 
strongly to their aid against Bashar al-Assad. But, we are very 
glad to come to the aid of the Kurds.
    So, I mean, I do not know what I think about that, but, 
when I heard people say that to me, I found myself having a 
hard time, you know, mounting the counterargument. I think that 
that is something that we have to contemplate.
    Mr. Chair, could I ask one more question? I have gone over, 
but just--the scope of what we may still see, from a 
humanitarian situation in Syria.
    So, I--as I understand it, about 2-point million--2 million 
have--I am sorry--4 million have fled outside Syria. About 7.6 
million have displaced inside Syria. Is there any reason to 
think, based on what we are seeing now, unless there is a 
dramatic change in calculation, that that is going to slow 
down, or are we likely to see significant more millions 
displaced out and significant more millions displaced in, 
unless the status quo is somehow altered?
    Mr. Bowers. There is approximately 11 million people left, 
we think, inside Syria. So, that is 11 million more people that 
could displace, obviously----
    Senator Kaine. And the internally displaced could also 
displace out, right?
    Mr. Bowers. That is right. Obviously, at this stage, I 
could only give you a speculation, but every worst-case 
scenario has come true that we have put together over the last 
4 years of this conflict. Four years ago, I would not have 
thought we would see a disintegrated, failed state of Syria. 
Now it is. So, essentially, take that as an indicator of things 
to come. Because if there is no other political situation, that 
is going to be brought down to bear. Individuals have exhausted 
what they can do, literally, in the region, both financially 
and otherwise. And again, when you are--do not have a right to 
work in Lebanon, Jordan, or Turkey, you are at the whims of 
then living in the camps or living on the streets. And that 
pressure on those host communities, that will have something to 
bear, as well, especially Lebanon, as we have talked about.
    So, the tide of people will only go forward, we think.
    Senator Kaine. And then, finally, recognizing the 
complexity of the whole safe-zone, humanitarian-zone thing--and 
let us step back from kind of the legal aspect of it. I do 
think what Dr. Kagan said was true, there would be no way to do 
it without military support. But, if the folks who remain in 
Syria who are still trying to decide what to do--if there were 
segments of the country that they viewed as largely safe, all 
things being equal, would they rather stay in their own country 
than flee outside the country, if they felt like there were 
places where they would be safe?
    Mr. Bowers. Every Syrian we spoke to, of course, does not 
want to leave at all. No Syrian wants----
    Senator Kaine. And many want to come back. The ones in 
Turkey----
    Mr. Bowers. Many want to come back.
    I think, though, the credibility of the international 
community saying, ``We are going to create a safe zone'' is 
very weak, frankly. And, as Dr. Kagan pointed out, unless you 
have a military force mobilized to enforce that safe zone, 
which, in effect, becomes a new combatant zone----
    Senator Kaine. Yes.
    Mr. Bowers [continuing]. I doubt people will be attracted 
to those zones.
    Senator Kaine. I agree with you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Cardin, do you have any closing comments?
    Senator Cardin. Well, let me just thank our witnesses 
again.
    I mean, I think it is clear that U.S. leadership is 
desperately needed for stability in this region. We need a 
regional strategy that is credible, that is achievable, and we 
have to stick to our values, and do what we do best. But we 
must also understand there is a lot that we cannot do, and it 
must be done by empowering the local governments and the people 
and ultimately the governments have to respect the rights of 
all citizens. We keep coming back to the same points. But I 
thought this hearing was extremely helpful in trying to put 
together the different players and pieces.
    And I would just thank our witnesses.
    The Chairman. Yes, I thank our witnesses, too. I think it 
is been a great hearing and a great start for what we are going 
to be doing over the next month. My friend from Virginia is one 
of the most thoughtful members that we have on the committee, 
and without his efforts and Senator Cardin's and others, we 
would not have had the focus we have had recently on the Iran 
nuclear agreement.
    I will say I am one of those people that do believe that 
the administration is authorized to do what it is doing. It is 
on the edge. I do believe that the American people are very 
much behind our efforts against ISIS. I see no division 
whatsoever. I cannot imagine how any military personnel would 
not feel supported in what they are doing.
    And, as I have mentioned, I think, for some members--
certainly not every member, but for some members, the 
discussion of an AUMF has been, let us face it, more about 
limiting the next administration's ability to actually counter 
ISIS than to authorize efforts against them today.
    So, with all those forces, I think everyone would have to 
acknowledge that that is certainly the case--but, I--again, I 
appreciate so much Senator Kaine, Senator Flake, continuing to 
pursue the rightful role. I am not unsure that, as we develop 
this regional effort, that is not the place for this to 
appropriately occur, where many things might be authorized.
    But, I thank you all for listening to me say that, back to 
Senator Kaine--most importantly, for your testimony today.
    And if it is okay, we will leave the record open until the 
close of business Friday. If you would respond to questions 
that come to you in a prompt manner, we would appreciate it.
    Thank you for your time, what you do on behalf of our 
Nation. And we look forward to seeing you again.
    Thank you.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
